~:n~~clf
c'N$~E6taRGENmAjJ




                    September 1993
                       Date issued
        INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                              WASHINGTON, D.C. 20436
September 30, 1993




After personnel and rent, communication costs are one of the Commission's largest
expenses, approximately $1.1 million in fiscal year 1993. These costs are for
the use of telephones (internally, via credit cards, and use of facsimile
machines), mail (regular and express service), and delivery services.         The
objectives of this review were to determine whether the Commission is acquiring,
protecting and using communication services economically and efficiently, the
causes of inefficiencies or uneconomical practices, and compliance with
applicable laws and regulations.

This review was conducted by Urbach Kahn & Werlin PC in accordance with the
Government Auditing Standards issued by the Comptroller General of the United
States. The auditors did not identify any material instances of non-compliance
with Federal laws and regulations.     They did identify multiple areas where
controls could be strengthened or alternative procedures adopted that could
possibly reduce the costs for communications services. In deciding whether these
changes should be implemented, we agree that costs to implement the controls and
non-monetary factors, such as the lack of personnel positions, also need to be
considered. The findings presented on pages 9 through 39 of the report are as
follows:

      Cost center responsibilities for communications budget object classes
      should convey authority for cost control.

      The Commission should improve policies or employee guidance on relative
      costs and proper use of communication services.

      The Commission should reassess telephone lines and features.

      Use of call detail reporting (CDR) should be evaluated.

      The Commission should re-evaluate its mailroom services contract.

      The Commission   should consider utilizing the minivan or sedan         for
      deliveries.

      Logs should be maintained at facsimile machines.
      Commission personnel should use telephone calling cards while traveling
      on official business.

      The Commission should determine the whereabouts of all active temporary
      calling cards.

      The Commission should have an airbill or authorized signature on the
      airbill for all Federal Express deliveries.

      The Commission should redesign the vehicle trip log.

Five matters were noted for management's consideration. 1) The Commission is
not being properly charged by the General Services Administration for the special
phone line features. 2) Mandatory postage metering will likely increase costs.
3) The Commission should consider alternate vendors for its general courier
services. 4) The Commission should evaluate alternatives for local overnight
delivery. 5) The Commission should consider establishing a formal organization
plan for communications services.

Recommendations relating to the findings are presented throughout the body of
the report. The Director of Operations is responsible for the recommendations
on telecommunications. The Director of Administration is responsible for the
recommendations on mail and delivery services. Many of the recommendations will
require coordination between the offices in taking corrective action.

The Directors of Administration and Operations concurred with most of the
recommendations and suggestions. I accepted the responses as reaching management
agreement on all of the recorrnnendations, including the two with which the
Directors disagreed.

The Directors disagreed with the recommendation to evaluate the use of CDR;
technically, however, they completed action on the recorrnnendation and disagreed
with the auditors' indication that CDR should be adopted. I agree that the cost
and other limitations argue against adopting internal CDR. However, the absence
of CDR makes a factual analysis of the extent to which an employee is abusing
the use of telephones virtually impossible. I believe that the Commission should
reconsider CDR as options become available in telecommunications services.

The Directors also disagreed with the recommendations to establish procedures
to collect fax usage information and update guidance to include fax tracking
procedures.    Current Commission policy states that offices with facsimile
machines are encouraged to maintain logs. The auditors agreed that this guidance
was appropriate, but found that logs were seldom maintained. The recommendations
intended that better guidance would clarify how offices could comply with this
policy using simple non-burdensome procedures. The response indicates that the
Commission no longer agrees with the stated policy; if so, the policy should be
deleted.

The Directors agreed with the other recommendations. However, the agreed upon
action for four responses was somewhat different than intended, as discussed on
the following page.
      The auditors recommended that the Commission should reassess its mailroom
      contract.   The Director of Administration agreed to reassess the work
      required under the contract, but not the cost effectiveness of the
      contract.   I believe that both issues should have been addressed in
      developing the request for a new contract for fiscal year 1994.

     The auditors recommended that the Office of Management Services (OMS)
     should review the availability of Commission vehicles for local delivery.
     The recommendation was based on statistics that the minivan was used less
     than 90 minutes a day and the sedan less than three hours per day in
     calendar year 1992.      The response stated agreement but the wording
     indicated that greater utilization was not possible. I did not accept the
     Director's response that action was completed. I think more can and should
     be done to increase the vehicle utilization and will work with the Director
     to achieve this.

     The auditors recommended that OMS take steps to improve control over
     Federal Express airbills. The Director of Administration agreed but said
     that the needs of its clients must be balanced with the optimum of
     protection. The recommendation in no way limits the use of Federal Express
     nor should a reconciliation of all airbills detract from meeting the needs
     of clients. I believe the reconciliation should involve all airbills.

     The auditors recommended that OMS redesign the vehicle trip log and the
     Director of Administration reported that this was done. However, he stated
     that the purpose of the trip would be reported as "transporting
     Commissioners. "  This provides no more information than the list of
     passengers. I think that the Commissioners are better served if a brief
     purpose is recorded, e.g., meeting with Commerce officials, in the event
     that a question is ever raised about the vehicle use. I did not accept
     the Director's response that action was completed on this recommendation
     pending agreement on this issue.

A summary of the Directors' comments is presented after each finding and other
matter on pages 12 through 46 of the report. The comments are presented in
their entirety as an appendix to the report.




                                   Ian~~+
                                    Inspector General
           US INTERNATIONAL TRADE COMMISSION

            ECONOMY AND EFFICIENCY REVIEW OF
               COMMUNICATIONS SERVICES

                       APRIL 1993




UK
&W   ~~~~~~~~~~=;;;;=;;;;~                     ~~~
                        US INTERNATIONAL TRADE COMMISSION

         ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                     TABLE OF CONTENTS




     INDEPENDENT ACCOUNTANT'S AGREED-UPON PROCEDURES REPORT


     SECTION I:    BACKGROUND                                                     2-5


     SECTION II:   OBJECTIVES, SCOPE, AND METHODOLOGY                             6-8


     SECTION III: FINDINGS AND RECOMMENDATIONS                                   9-39


     SECTION IV: OTHER MATTERS AND SUGGESTIONS                                   40-46


     Appendix -          Memorandum from the Director of Administration, dated
                         August 30, 1993, on Draft Report




UK
&W   ~~              ~~~~~~~~~~~iiiiiiii::i:iii~~                                        ___
              INDEPENDENTACCOUNTANT~
      AGREED-UPON PROCEDURES REPORT




UK
&W   ~~iiiiiiiiiiiiiiiiiiiiiiiiiiiiii~~~~~~~~iiiiiiiiiiiiiii~~
UK Urbach Kahn & Werlin PC
&W CERTIFIED PUBLIC ACCOUNTANTS


                                    INDEPENDENT ACCOUNTANT'S
                                  AGREED-UPON PROCEDURES REPORT




      Office of Inspector General
      United States International Trade Commission


      We have performed certain agreed-upon procedures related to the communications services utilized
      by United States International Trade Commission (USITC). The procedures for our review as                               f


      identified under Section II of this report, were agreed to by USITC's Office of inspector General
      and were performed to assist USITC in evaluating and improving the economy and efficiency ot
      theircornrnunicaticns services. This report is intended solely for the information of USITC, This
      restriction is not intended to limit the distribution of this report, which is a matter of public record.

     The objectives of this engagement included the performance of agreed-upon procedures to
     determine findings with respect to the following:

            • Whether USITC is acquiring,                   protecting,        and      utilizing        communications   services
              economically and efficiently,

            • The causes of inefficiencies or ineffective uses of services                           I




           • Whether USITC is in compliance with Federal laws and regulations,

           • Identification of areas of potential cost savings, and

           • Recommendations for improved economy and efficiency of communications services.

     Based on the procedures performed, we did not identify any material instances of non-compliance
     with Federal laws and regulations.       We did, however, identify certain findings and
     recommendations, and other matters and suggestions, which are detailed under Sections III and
     IV of this report.




     Washington, DC
     April 30, 1993


                                                                 - 1 -
                       1200 Seventeenth Street NW, Washington, DC 20036      (202) 296-2020    FAX (202) 223-8488
                                      Worldwide Coverage through Urbach Hacker Young International
                          · SECTION I
                       BACKGROUND




UK
&W   iiiiiiiiiiiiiii~~~~~~~~~=~~        ~
                            US INTERNATIONAL TRADE COMMISSION

           ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                              BACKGROUND



      USITC communications services and providers

      The United States International Trade Commission (USITC), an independent Federal agency,
      monitors international trade and tariff activities as enacted by law. USITC has approximately 500
      employees and a budget approximation of $44,852,000 for FY 93. A budget of $47,692,000 has
      been requested for FY 94.

       USITC's Office of Management Services (OMS) is responsible for maintaining centralized services,
       such as rent, mail services, postage and courier services.        This also includes budgetary
       responsibility over these services. Due to the nature of USITC's services, telephone and postage
     . usage are significant overhead cost components. USITC also completed a staff restructuring in
       April 1993 whereby the telecommunications function was transferred from OMS to the Office of
       Information Resources Management (OIRM).

      USITC has been reviewing its communication systems during the past year to ensure adequacy
     .of controls, efficiency, and to control costs. In September 1992, the Office of Inspector General
      issued their Review of USITC's Local Area Network Administration and Controls, iii November
      1992, USITC issued a new Directive on Control and Usage of Government Owned or Provided
      Telecommunications Systems and Services, which was subsequently updated in April 1993. In
      March 1993, USITC also updated their Directive on Mail Standards and Procedures.

      In other cost reduction efforts, the Office of the Secretary and the Office of Administration
      collaborated, with input from the Office of Inspector General, on their Report of Recommendations
      to Reduce the Costs of Printing and Mailing. This report was subsequently condensed into an
      Administrative Order. We understand, however, that as of the end of May, the text of this
      proposed Administrative Order has been rejected by the Commission, but that the Offices of rhe
      Secretary and Administration plan to continue working toward implementing several, if not all, of
      the recommendations from the original report.

      The following page summarizes amounts USITC has expended for communications services in
      FY 92 and related budget amounts for FY 93.




UK                                                  -2-
&W
               US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                           BACKGROUND




UK                             -3 -
&W
                             US INTERNATIONAL TRADE COMMISSION

          ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                                 BACKGROUND



     The following are descriptions of USITC's communications services covered by this report:

     Telecommunications

     USITC's telecommunications network includes two modem pools, a dozen facsimile machines and
     approximately 500 telephones and personal computers (some with modems) attached to a local area
     network with eleven file servers. USITC has approximately 1,400 telephone lines, of which 340 are
     attached through 13 Norstar Key Service Units.

     USITC's telephone operating system has undergone major changes recently with the installation of
     WITS      (Washington    Inter-agency Telecommunications      System)    and   FTS2000      (Federal
     Telecommunication System). WITS was installed at USITC in 1991 to provide a fixed cost
     metropolitan area inter-agency communication network. FTS2000 was created to provide an advanced
     government-wide domestic long distance telecommunications network. Both FTS2000 and \t\lITS are
     mandatory contracts through the General Services Administration (GSA). A contract has been awarded
     to obtain the Octel Voice Processing System from GSA - a system which wiil provide voice mail
     capabilities for USITC employees.

     Currently, FTS2000 service is billed to USITC by GSA based on area switch costs allocated by USITC's
     percentage of telephone lines using that switch. Under this billing method, if other agencies in the area
     (such as DOT, GSA, ED,... ) change the number of telephone lines connected to the switch, USITC's
     allocation and, thus, their FTS2000 service costs, could potentially change. Similarly, if USITC
     changes its number of lines, it may be able to lower their long distance costs.

     GSA has plans to implement Automatic Number Identification (ANI) probably some time in fiscal year
     1994. ANI would change the FTS2000 charges from a line-based charge to a usage-based charpe
     which is consistent with conventional long distance service.

     WITS 'is also charged to USITC on a fixed cost per phone line (currently $21. 70/month/line, plus
     features) but does not have plans to switch to usage-based charges.

     C&P Telephone and AT&T provide local and international non-governmental telephone service. C&P
     telephone charges are based on the number of calls, and AT&T international calls are charged through
     standard toll rates based on the destination of the call.

     Mail and delivery services

     Mail and delivery services are processed by USITC's mailroom staff who are contracted personnel
     under a Small Business Administration Section 8a set-aside contract. Mailroom staff handle all
     incoming and outgoing mail, Federal Express (a mandatory, exclusive GSA contract), other special
     delivery services, requests for courier services and use of USITC vehicles.




UK                                                    -4 -
&W
                               US INTERNATIONAL TRADE COMMISSION

             ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SER\lICES

                                                   BACKGROUND


     The most significant source of postage and mailing costs at USITC is mass mailings of trade and tariff
     reports which account for up to 80% of USITC's postage costs. The reports generally weigh one to
     three pounds and historically have been sent first class mail or commercial parcel delivery. USITC's
     Report of Recommendations to Reduce the Costs of Printing and Mailing provides suggested ways to
     reduce the postage costs related to these mass mailings, including:

     • Consolidating all mailing lists onto the system maintained by the Secretary's Office,

     • Validating the list annually,

     • Sending only one copy of each publication to one address,

     • Limiting the number of publications available to any one-time request,

     II   Requiring addressees within the Washington metropolitan area to pickup the publications personally
          and addressees outside of the metropolitan area t.o pay for postage {or provide their Federal Express
          account number),

     • Expand the use of the Government Printing Office {GPO) Bookstore for popular recurring reports, and

     • Consider the use of GPO reimbursable mailing services.

     !mplementation of these recommendations is still bp.ing determined by USITC management.

     Vehicles

     USITC leases two vehicles which are used for USITC employee transportation in the Washington
     metropolitan area, furniture and document storage, and for "burn" runs for confidential document
     destruction.

     The sedan is used by Commissioners and USITC staff when the use of alternate transportation is not
     feasible. USITC also has a minivan available, which is used to transport furniture and documents to
     its storage facilities at the Navy Yard, and in Forestville, Maryland. These vehicles usually are driven
     by mailroom personnel.




UK                                                      -5 -
&W
                                     SECTION II
                        OBJECTIVES, SCOPE, AND
                                METHODOLOGY




UK
&W   ~~=;;;;=;;;;~iiiiiiiiiiiiiiiiiiiiiiiiiiiiii~==iiiiiiiiiiiiiii~~~~~
                            US INTERNATIONAL TRADE COMMISSION

          ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               OBJECTIVES, SCOPE AND METHODOLOGY



     Objectives

     UKW was engaged to perform agreed-upon procedures related to the economy and efficiency of
     the communications services of USITC. The scope of the engagement included reviews of
     USITC's operations and records related to the acquisition, management, regulation and use of
     communications services, including telecommunications, mail and delivery services.      The
     objectives of the engagement included the performance of agreed-upon procedures by UKW to
     determine findings with respect to the following:

     • Whether USITC is acquiring, protecting, and using communications services economically and
       efficiently,

     • The causes of any inefficiencies or ineffective uses of services,

     • Whether USITC is in compliance with applicable laws and regulations,

     • Identification of potential cost savings, and

     • Recommendations for improved economy and efficiency of the communications services.

     Scope

     UKW reviewed USITC's policies for employee use of telecommunications, mail and delivery
     services in effect as of April 1993.        UKW met with numerous USITC employees with
     responsibilities in the communications area and reviewed relevant vendor files, employee guidance,
     USITC Directives, contract files and expenditure transactions from fiscal years 1992 and 1993.

     Methodology

     The general procedures performed by UKW were as follows:

     • Identified and reviewed applicable Federal, USITC or other criteria/guidance, including the
       documents identified in the Statement of Work and the letter from the Inspector General dated
       April 9, 1993.

     • Met with the Acting Secretary to discuss the status and results of their review in recommending
       procedures and controls to reduce USITC's printing and mailing costs.

     • Met with the Inspector General to review the report on USITC's role in preparing recurring
       reports and in evaluating recommendations for broader applicability.

     • Prepared a comprehensive report for USITC which provided an analysis and evaluation of the
       current communications services and recommendations for economy and efficiency
       improvements.




UK                                                     -6-
&W
                            US INTERNATIONAL TRADE COMMISSION

            ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               OBJECTIVES, SCOPE AND METHODOLOGY




     Telecommunications

     • Reviewed the USITC Directive on telecommunications systems and services.

     • Documented current USITC usage requirements.

     • Identified related internal policies and employee guidance.

     • Performed carrier and usage analysis.

     • Reviewed current carrier arrangements, as appropriate.

     • Reviewed current call accounting systems and USITC certification procedures.

     • Documented the process to        authorize procurements,      use, control costs and approve
       expenditures.

     • Evaluated adequacy of guidance to employees including printed instructions and training.

     • Tested adherence to Federal laws and USITC policies.

     • Tested controls over expenditures and procurement.

     • Documented and evaluated USITC controls over long distance calling cards.

     • Documented and evaluated the use of facsimile machines and modem pools.

     Mail

     • Identified policies for mailing documents, including special services such as express or certified
       mail and telegrams.

     • Documented and understood current USITC usage requirements.

     • Reviewed mailroom procedures and examined whether full advantage of pre-sort/bulk rates were
       being taken.

     • Determined what types of mail services were being used.

     • Reviewed the results of the Report of Recommendations to Reduce the Costs of Printing and
       Mailings .

     • Reviewed vendor agreements or Blanket Purchase Agreements with mail service providers.




UK                                                  - 7 -
&W
                           US INTERNATIONAL TRADE COMMISSION

          ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               OBJECTIVES, SCOPE AND METHODOLOGY



     • Documented the process to authorize procurements,           use,   control   costs and   approve
       expenditures.

     • Evaluated adequacy of employee guidance on use of mail services.

     • Documented and tested adherence to Federal laws and USITC policies.

     • Tested controls over expenditures.

     • Reviewed the mailroom services contract.

     • Documented and evaluated volume monitoring procedures.

     Delivery services

     • Identified policies for the use of messenger services and the USITC vehicles .

     • Documented and understood USITC usage requirements.

     • Identified all types of delivery and courier services used by USITC.

     • Reviewed criteria for determining when the vehicle was needed, and assessed efficiencies of
       current practices and determined aiternatives.

     • Evaluated adequacy of employee guidance on the use of these services.

     • Documented and evaluated usage and scheduling procedures for the vehicles.

     • Tested adherence to Federal laws and USITC policies.

     • Tested controls over expenditures.




UK                                                 -8 -
&W
                  SECTION III
               FINDINGS AND
           RECOMMENDA TIONS




UK
&W   ~~~~~=~~~~~~~              ~
                          US INTERNATIONAL TRADE COMMISSION

         ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                      SUMMARY OF REPORT FINDINGS, RECOMMENDATIONS,
                                    AND SUGGESTIONS



       Recommendation                                                                         Finding
           Number                                Description                                 Reference


     Findings and recommendations - economy and efficiency

                       General

              1,2       Cost center responsibilities for communications budget object
                        classes should convey authority for cost control.                        A

            3,4,5,6    USITC should improve policies or employee guidance on relative
                       costs and proper use of communications services.                          B

                       Telecommunications

              7,8      USITC should reassess telephone lines and features.                       c
               9       Use of call detail reporting should be evaluated.                         D



              10       USITC should re-evaluate its mailroom services contract.                  E

                       Deliveries

              11       USITC should consider utilizing the minivan or sedan for
                       deliveries.                                                               F

     Findings and recommendations - compliance with policies

            12,13      Logs should be maintained at facsimile machines.                          G

              14       USITC personnel should use telephone calling cards while
                       traveling on official business.                                           H

              15       USITC should determine the        whereabouts       of all   active
                       temporary calling cards.

              16       USITC should have an airbill or authorized signature on the
                       airbill for all Federal Express deliveries.                               J

              17       USITC should redesign the vehicle trip log.                               K




UK                                                -9-
&W
                           US INTERNATIONAL TRADE COMMISSION

          ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                      SUMMARY OF REPORT FINDINGS, RECOMMENDATIONS,
                                    AND SUGGESTIONS




                                                                                         Finding
                                        Description                                     Reference


     Other matters and suggestions

     USITC is not being properly charged by GSA for the special phone line features.        L

     Mandatory postage metering will likely increase costs.                                 M

     USITC should consider alternate vendors for its general courier services.              N

     USITC should evaluate alternatives for local overnight delivery.                       o
     USITC should consider establishing a formal organization plan for communications
     services.                                                                              p




UK                                                - 10 -
&W
                           US INTERNATIONAL TRADE COMMISSION

         ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                  FINDINGS AND RECOMMENDATIONS


     A) COST CENTERRESPONSIBILITIES FOR COMMUNICA TIONS BUDGET OBJECT
        CLASSES SHOULD CONVEY AUTHORITY FOR COST CONTROL.

        Condition

          Cost center managers assigned responsibility for certain budgetary object class line items do
          not always have the ability to control these costs. Cost center responsibility for budget object
          classes does not convey authority to control utilization costs, only acquisition costs. This is
          important in that the cost center managers responsible for budgeting telecommunications and
          mail line items cannot control how the services are used. In the absence of specific guidelines
       .. at the departmental level, staff are free to generate usage costs without triggering any review
          or control process. For example, OMS has cost center responsibility over themaii and
          delivery object classes, but has no authority to control how staff utilize mail services.
          Similarly,. OIRM has cost center responsibility for telecommunications budget items, but
          cannot control staff phone calls.

        Criteria

        USITC Directive 2103.1, dated June 5, 1992, describes the authorization of cost center
        managers for budget items in their control and specifies that n such authorizations constitute
        certification that funds ... or other appropriate authorizations are available to cover the action
        taken in the appropriate cost center budget allocation. Where cost center budgets are
        suballocated, appropriate authority to certify documents also must be re-delegated in writing.
        Where budgets are not suballocated, certification and approval authority may not be re-
        delegated. n

        Cause

        USITC's current budgetary control policy allocates funds for certain overhead costs incurred
        throughout the organization to certain administrative offices such as OMS and OIRM. This
        policy does not provide for the suballocation of these funds to the users who actually incur
        the costs.

        Effect

        Not all telecommunications expenditures are controllable at the administrative department
        level. One example is international telephone calls. While OIRM is responsible for the
        budgetary controls, OIRM cannot control the usage by other departments whose cost center
        managers have no incentive to maintain costs within any departmental suballocation.

        Recommendations

        1.    Administration should modify Directive 2103.

              Although the majority of the telecommunications budget is controllable at the OIRM level
              (such as procurement, WITS and, for the meantime, FTS 2000), we recommend the
              language of USITC Directive 2103 be modified by Administration to convey a clear


UK                                                 - 11 -
&W
                       US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                              FINDINGS AND RECOMMENDATIONS


           description of cost center responsibilities and where cost controls over utilization of
           usage-based services must be applied in all other departments using the service.

           USITC should establish allocation procedures for variable communications costs to allow
           recognition of such costs at a departmental level. This process would provide improved
           management information on the source of communications services usage throughout
           USITC.

     Management's response

     "We agree that the language of USITC Directive 2103 could be modified to convey a clearer
     description of cost center responsibilities, and where additionai cost controls over
     telecommunications must be applied. We also agree that a conveyance of communications
     costs to cost center managers by OIRM may provide improved management of these costs.
     This requirement (a conveyance of communications costs) could be accomplished in
     conjunction with execution of the Commission's FY 1994 budget. "

     UKW's comment

     Current policy limits the Commission's ability to control utilization costs in user areas, since
     the user areas are not responsible fer cost items related to service use. Rather, these are
     managed aqencv-wide by OIRM (telecommunications) and OMS (mail/delivery).                    Our
     recommendation is intended to promote "local" responsibitity for usage costs, and
     Administration and Operations concur that" ... conveyance of communications costs to cost
     center managers ... " is the proper course of action.

     2.   USITC should consider suballocating budget items.

          USITC should consider suballocating cost center controls for usage-based costs to the
          department level. This process, we believe, would bring USITC into better compliance
          with Federal policies concerning certification of call detail reports. Suballocation would
          also provide better management information regarding the expected and actual volume
          of variable overhead used by specific offices, which may result in lower costs.

          The Directive could be reworded to distinguish between authorization to 'acquire' or
          'procure' services and authorization to 'use' services. This would provide clear
          guidelines as to who is responsible for obtaining the services agency-wide, and who is
          responsible for ensuring that the services obtained are used in a cost-effective manner.

     Management's response     *
     n DISAGREE. While we agree that some form of office-by-office conveyance of costs may be

     cost effective, we are not in agreement with an office-by-office allocation of
     telecommunications budgets. Telecommunications costs should be higher in areas where the
     workload is higher and lower in areas where the workload is lower. Since we cannot even
     project our workload with much accuracy, it may present a problem to project
     telecommunications costs by office. In addition, a majority of these costs do not usually vary
     with small office or program changes, and if allocated: (1) would move agency-wide savings

UK                                             - 12 -
&W
                             US INTERNATIONAL TRADE COMMISSION

         ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                    FINDINGS AND RECOMMENDATIONS


        from Commission control to cost center manager control; and (2) any savings
        telecommunications costs may be less than the additional resources required to generate
        them.

        Also, the use of calling cards are monitored by the Office of Information Resources
        Management who currently require certification of the charges from appropriate cost center
        manager on a monthly basis. "

        UKW's comment

        The recommendation to consider suballocating communications budget items to cost centers
        is a natural outcome of the n ••• conveyance of communications costs ... n In our view, the
        ability to track usage of services is essential as a prerequisite for controlling costs. By making
        cost center managers (whether departments or offices) responsible for the portion of the
        telecommunications budget representing utilization of services, we believe USITC can promote
        more economical, local management of such services. The alternative is to retain centralized
        budget responsibility for telecommunication utilization at QIRM -an alternative which has
        already been demonstrated to be a less effective approach to controlling such costs.




     *NOTE:   The Chairman approved management's response with a modification that the Commission could
              informally consider the issue (suballocating budget items) by conducting an assessment of the issues
              and presenting findings and recommendations, if any, including some form of ottice-bv-ottice
              conveyance.




UK                                                     - 13 -
&W
                          US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SER\lICES

                                 FINDINGS AND RECOMMENDATIONS


     B) USITC SHOULD IMPROVE POLICIES OR EMPLO YEEGUIDANCE ON RELA TIVE
        COSTS AND PROPER USE OF COMMUNICA TIONS SERVICES.

        Condition

        The following are examples of areas where USITC policies or guidance published for
        employees was lacking or does not accurately communicate the most efficient lise of
        services:

        •     USITC Telephone Directory does not indicate that local non-WITS service is charged on
              a per-call "message-unit" basis which is currently 6.5 cents per call.

        •     Employee guidance on the use of premium mail and courier services does not outline the
              most efficient methods for delivery.

        •     USITC has no formal policy for the use of the minivan.

        Criteria

        Page 34 of the USITC Telephone Directory states:

              "Some people think the Government pays flat fees for unlimited long-distance
              service. It doesn't. Personal calls and extended conversations count. Each
              month, ITC receives an itemized bill showing the extensions from which celts were
              made, the destination numbers, and the minutes of connection. If you use vour
              office phone for personal calls, you add to the ITC phone bill. n

       GAO's Standards for Internal Control in the Federal Government outlines standards for an
       agency's system of internal accounting and administrative controls which includes the
       statement that:

             "Access to resources shall be limited to authorized personnel. Access includes
             both direct physical access and indirect access through the preparation or
             processing of documents that authorize the use of disposition of resources.
             Periodic comparison shall be made at the resources with the recorded
             accountability to determine whether the two agree.         The frequency of the
             comparison shall be a function of the vulnerability of the asset. "

       Cause

       The following factors may be the cause of some of observed limitations in USlTC's current
       guidance:

       •     the desire to keep staff instruction materials concise and focused,




UK                                               - 14 -
&W
                      US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                             FINDINGS AND RECOMMENDATIONS


     •    the pace of updates or changes that would affect production of hard copy guidance
          materials, such as the numerous changes in the telephone operating system (i.e. dial -8
          changed to dial-g, etc.)

     •    the complexity of service offerings and options,

     •    the perception that certain guidance, such as awareness of the true cost of message
          units, may not be material and thus is not needed, and

     •    the perception that staff guidance goes unused or unread

     •    other factors may circumvent the lowest cost requirement such as the need for
          expedited delivery.

     Effect

     lnadequate guidance may result in direct abuse (non-official use), indirect abuse or simply
     inefficient use of USITC resources. Specifically:

     •    Employees may not understand the cost impact of 'blindly' dialing 9 for local telephone
          calls.

     •    Express mail and courier services may not be utilized cost efficiently if employees do not
          understand the relative costs.

     •    The vehicles may not be used case effectively.

     Recommendations

     3.   Enhance staff awareness.

          Staff awareness of the cost impact of their use of USITC communications services
          should be reinforced through strengthening of the wording of guidance such as the
          USITC Telephone Directory and Administrative Procedures Handbook, periodic seminars
          and new staff orientation, common-area posters, etc. Specifically. USITC may realize
          cost savings if staff know when to use overnight delivery or regular mail instead of a
          courier, and the fact that a message unit is generated for each 'dial-9' call. Improved
          staff awareness would reduce wasteful and inefficient usage. Further, the importance
          of individual commitment to improve tracking systems in place, such as keeping fax
          logs, using activity reporting codes, etc. should be emphasized. In general, improving
          policies and guidance for employees regarding the use of USITC resources is a low-cost
          way to improve the economy and efficiency of these services.

     4.   OMS should improve guidance on use of overnight delivery services.

          USITC should provide employees with more formalized guidance on the use of overnight
          mail services, courier services and available alternatives. One method would be to post
          simple charts in staff common areas ldentifvinq-eliqfble vendors and the

UK                                            - 15 -
&W
                       US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                              FINDINGS AND RECOMMENDATIONS


           cost of service. Other control procedures, such as tracking and certification of airbills,
           also may help USITC control the potential for overuse of high-cost express mail services.


     5.    USITC should update guidance materials to provide more cost information.

           USITC should update its Directive on mail services, as well as the USITC Telephone
           Directory (a more common resource for employees). For example, if employees are
           conscious of the fact that round-trip and rush charges can triple or quadruple courier
           fees, alternate methods of delivery or the overall urgency of the delivery may be
           reconsidered. As discussed in Finding A, there currently is little incentive by employees
           to control utilization costs since the expense responsibility is not within the office
           generating the cost, but within the Cost Center responsible for the budget object classes
           affected.

           USITC also should update its Telephone Directory to mention the variable cost nature
           of non-WITS local calls.

     6.    USITC should establish policy concerning the use or availability of the minivan.

            USITC should provide those employees responsible for the management of the vehicles
          . with specific guidelines for the intended use of the minivan. As an alternative, USITC
            should update its Directive on the use of the sedan to provide guidance on how and
            when it is appropriate to call the mailroom to use the USITC minivan. If staff are not
            to use the minivan, the Directive should be modified to exclude specifically the use of
            the minivan.

     Management's response

     "AGREE. The Office of Administration will revise the USITC Telephone Directory and
     Administrative Procedures Handbook to include information and guidance on charges for use
     of mail, delivery services, and telephones.

     The Office of Operations (OIRM) will provide periodic bulletins on procedures and charges
     associated with the use of telephones, voice mail, fax machines, data transmission facilities
     and related services."

     UKW's comment

     We concur with management's response, although we note that the response did not include
     comment on our minivan policy recommendation. Management's action should also ensure
     that "information and guidance" initiatives cover not only cost control-related information, but
     also emphasize the importance of tracking and logging of usage. This is especially true if
     Recommendations 1 and 2 are to be effective.




UK                                             - 16 -
&W
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                FINDINGS AND RECOMMENDATIONS


     C) USITC SHOULD REASSESS TELEPHONE LINES AND FEA TURES.

       Condition

       Procurement of new or changed telephone services at USITC has not always been
       accompanied by a reassessment of the impact of the changes. Key cost components in
       procurement are:

             Key Service Units (KSU's),
             specialized multi-line telephones,
             telephone line features (call waiting, call forwarding, etc.), and
             voice mail.

       KSU's and multi-line phones have been purchased incrementally to reduce clerical costs and
       provide better functionality to staff areas. However, there has been no explicit pian to
       reassess whether the special features available through the new phone equipment may
       supersede the need for the same kinds of features on the lines supplied by the phone
       company. Similarly, the current voice mail implementation was started without specific
       consideration of the impact on lines and features. This may result in lines and features being
       used inefficiently.

       Criteria

       In line with the President's Council on Integrity and Efficiency report of 3/16/87,

             "the purpose of ... internal controlslover the ordering, receipt and verification of
             telecommunications services] is to minimize telecommunications costs by ensuring
             that: 1) only needed services are procured; 2) billings for service are accurate;
             and 3) existing services ere etticient, economical a.nd still needed. "

       Cause

       USITC lacks an automated system for an inventory of lines, switches, employees and
       features. Changes are tracked manually in a cumulative fashion, but the ability to define
       reports to link information is limited. Policies for the periodic review and evaluation of the
       system also have not been established.

       Effect

       While routine changes may involve only one or a few individuals, consolidation of services,
       office moves or implementation of enhanced services (like voice mail) can have a significant
       impact. At USITC, several trends over the last few years illustrate this issue:

       a)    The move from single-line to multi-line telephones is serviced by the KSU which
             originally was implemented to allow enhanced services such as improved forwarding and
             call pickup. As a result of the increased availability of multi-line KSU-attached phones:




UK                                               - 17 -
&W
                       US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               FINDINGS AND RECOMMENDATIONS


          .I   Certain features on telephone lines (monthly recurring costs) may be eliminated
               since similar services are available through the KSU (one-time cost); and

          .I   In-house call detail reporting is feasible.

     b)   Routine line moves and changes, especially for office or department relocations,
          involving additional internal wiring where old lines may not be disconnected if no longer
          needed or, more likely, may not have features removed as needs change. Specifically,
          there are over 200 data lines with features like "three-way calling" or "call forwarding"
          that are unneeded. Features are also available on hunt-group "unassigned" lines.

     c)   Voice mail service, expected to be introduced this year to reduce clerical support should
          also be viewed as a means to reduce unneeded lines and features.

     In-general, the ability to track and analyze the impact of moves and changes on individuals.
     assigned and unassigned lines and features is critical to the cross-referencing of information
     needed to place appropriate service orders and make changes in a timely fashion. Further
     short term changes may have negative long term cost implications.

     Recommendations

     7.   OIRM should establish an automated inventory database of phone lines.

          Currently, 85% of USITC's telecommunication costs are line-based charges (BOO/o
          excluding FTS2000) and are not variable or controllable at "(he user level. With the
          Norstar KSU system able to provide many services currently provided by WITS (for a
          monthly fee) as well as reduce the need for active phone lines, USITC should develop
          a cost effective telecommunications system inventory and develop a plan to maintain
          and monitor the system as changes occur. For each WITS telephone line that can be
          eliminated, USITC can save about $250 annually, We believe, based on our review
          (which was not a line-by-line audit of USITC's 1400 lines), that there may be significant
          savings possible by compiling a comprehensive inventory of lines with an eva toward
          consolidation and reduction of the total lines in use.

          In order to complete our analysis of USITC's telephone lines, we established a
          preliminary database for lines, features, users, locations, data/voice assignments, etc.
          A complete database of this type can be maintained in an accurate form that is both
          flexible and easy to maintain up-to-the-minute. We recommend that OIRM establish and
          maintain a database to provide reports of features, by telephone line type, and to
          determine:

          a}   which data and fax lines have features that should be available on voice lines only;

          b)   which lines are not assigned to individuals and, as a result, may be eligible for
               consideration to be eliminated or to have features removed;

          c)   which lines are KSU-attached and, as a result, may have multi-line capability (and
               which users have multi-line phones);

UK                                              - 18 -
&W
                        US INTERNATIONAL TRADE COMMISSION

      ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               FINDINGS AND RECOMMENDATIONS


           d)   where users and lines are located; and

           e)   which users have which features,

      An automated database would allow USITC to:

           a)   accurately and timely track moves and changes, yielding a "perpetual inventory" of
                telecommunications equipment and services;

           b)   report unneeded lines to be disconnected;

           c)   report "over-featured" lines to be changed;

           d)   report users to be moved to KSU's and/or multi-line capability;

           e)   link to call detail reports to provide utilization information electronically; and

           f)    consolidate lines and switches by organizational area (i.e., map the physical network
                to USITC's organizational structure) to take better advantage of KSU capabilities for
                 local pickup, forwarding, etc, An automated system or database is needed to allow
                 USITC to track lines and features and to associate lines with attached ecuiprnent.
                ·Iocation and other information. Having such a database of information would likely
                help to reduce the number of lines and special features in use, saving or. recurrinq
                monthly costs, Further, USITC should routinely assess its installed lines and
                features based on the impact of clerical support changes, the introduction of new
                technologies (such as voice mail), and the efficient use of modem line pools (rather
                than dedicated modems),

     ·8.   USITC should establish policy tor maintenance of the line inventory database.

           USITC should establish appropriate policies and procedures to ensure the ongoing
           accuracy and efficiency of their telecommunication system configuration via the
           automated inventory database, The goals are:

           •    To ensure that reporting of lines and features is readily available, accurate and
                timely,

           •    To ensure it can be used to assess the impact of proposed moves or new
                technologies to be implemented, and

           •    To ensure economical and efficient allocation of line resources to fulfill USITC staff
                communication needs,




UK                                               - 19 -
&W
                      US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                             FINDINGS AND RECOMMENDATIONS


     Management's response

     n AGREE.    The Office of Information Resources Management will establish an automated
     inventory. of telephone lines and line features. Procedures for maintaining the inventory and
     conducting periodic reviews of telephone lines and features will be established."

     UKW's comment

     The automated line inventory system, if properly maintained, will offer significant
     improvement in the timeliness of delivery of information needed to streamline operational
     costs by tailoring lines and features assigned to staff areas.




UK                                            - 20 -
&W
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                FINDINGS AND RECOMMENDATIONS


     D) USE OF CALL DETAIL REPORTING SHOULD BE EVALUATED.

        Condition

       Call detail reporting is currently available for calling cards and commercia! long distance only.
       WITS message unit service and (at present) FTS2000 calls are not reported by telephone
       number. USITC has other call detail reporting options, based on the availability of call detail
       recording on the Key Service Units (Norstar KSUs), currently supporting over 53% of the lines
       assigned to individuals. Norstar KSUs can capture and download records, by line, of 2!l
       outgoing calls to attached PCs. PC software then can be used to establish call detail reportinq
       based on the database of call activity.

       Limitations to this approach include:

             13 KSUs would need to be monitored separately, as technology limits the efficiency of
             interconnection between them.

             Without interconnection, one transportable PC could be set up to record a period of
             activity, or a PC would have to be assigned to each KSU for downloads.

             The consolidation, sorting and reporting of call detail records would require analysis and
             configuration by a PC-knowledgeable person.

             The linkage of call data activity to individuals by telephone number creates Privacy Act
             concerns.

       Call detail reporting (CDR), given the Privacy Act restrictions governing the use of call
       monitoring, is the most effective means to detect abusive and inefficient calling practices at
       the level of individual phone lines.

       Criteria

       USITC Directive 3402.1 (4/5/93) on Control and Usage of Government-Owned or Provided
       Telecommunications Systems and Services provides the policies for telephone use and the
       means of certifying "official business use."

       Privacy Act guidelines restrict monitoring of conversations as a means of ensuring official
       business use. In addition, FIRMR C-13 and USITC Directive 3402.1 recognize a broad
       definition of official business use. In general, the content of telephone messages IS presumed
       official.

       Implications of the changes between USITC 3402 (11/7/92) and USITC 3402. i (4/5193)
       include the determination, as sanctioned by 41 CFR 201-21.602(a), that cost recovery for
       unauthorized use will be attempted "if it is cost-effective to do so." This determination will
       be made by "the certifying supervisor" in the operational area. Nonetheless, as noted, the
       inability to monitor conversations and the presumption of "official business" leaves only call
       detail reporting as a means to certify use.




UK                                               - 21 -
&W
                           US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                  FINDINGS AND RECOMMENDATIONS


     The President's Council on Integrity and Efficiency (PCIE) report issued on 3/16/87 suggests
     that computer-assisted techniques can be used effectively to "detect and control the unofficial
     utilization of Government-provided long-distance telecommunications resources. n It identified
     eight specific automated selection criteria to be effective indicators of such unauthorized
     activity:

     a)       audio text calls (prerecorded messages, 900 numbers, etc.)

     b)       suburban area calls

     c)       resort area calls

     d)    collect calls longer than three minutes

     e)    third number calls

     f)    recurring off-network destination calls

     g)    unusual times

     h)    long calls (voice lines)

     Sampling is considered a reasonable approach to identify abusive call patterns quickly;
     exception reporting provides the key to sorting out specific instances.

     Cause

     It appears that plans to provide ANI through FTS2000 have been delayed in implementation
     repeatedly since availability was first announced. USITC Administrative Order FY-93-13
     expected certification for all calls (other than message unit calls) to be available by Februarv
     1993. Current estimates expect a September 1993 availability to be more realistic based. on
     GSA local switch limitations.

     Currently, call certification consists of forwarding photocopied bills to the appropriate area
     supervisor for signature attesting to the charges. The calling number is printed on the bills,
     but the name of the individual to whom the number is assigned is written in by
     telecommunications staff.

     Effect

     Installing in-house call detail reporting may have advantages over CDR, as implemented
     through the FTS 2000 system, which include:

          full call detail capture for K5U-attached lines;

          reduced abuse, even if limited PC availability requires less frequent monitoring, USITC
          can establish an unpubJicized rotation for the auditing of call detail by KSU and publicize
          the capability to employees;



UK                                              - 22 -
&W
                      US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                             FINDINGS AND RECOMMENDATIONS


          customized exception reporting, so that USITC can direct reports of off-hours or
          frequently-called numbers to be produced, limiting confusion and time requirements for
          area supervisors to certify them;

          links with other databases, such as the telephone directory, offices, etc. for customized
          call sorting and analysis. The Privacy Act of 1974 suggests that the database be
          secured to a specific individual or group, and that ca!1 detail reports to supervisors be
          strictly controlled;

          possible cost savings (one time costs for installing additional KSUs and multi-line
          telephones, can be offset by reducing total number of lines needed and the number of
          special features on remaining lines);

          timelines, (in-house CDR is captured "real-time").

     Appendix I of the 51 FR 18982 provides criteria for a Privacy Act-compliance CDR svstern.

     Recommendation

     9.   OIRM should review benefits of developing in-house CDR capability.

          USITC should reassess the importance of call detail reporting in fulfiliing its obligation
          to ensure "economical use of government-owned telecommunications services."
          Although the emphasis on the "cost effectiveness of cost recovery" can be seen to be
          a key factor limiting current call certification practices, we believe that controls over
          utilization, given Privacy Act concerns over the content of phone calls, must derive from
          the ability to capture call information. We have focused on the potential for USITC to
          develop its own CDR based on the capability of its telephone equipment to provide call
          detail capture.

          In this regard. USITC should consider the use of in-house call detail reporting and
          expand their KSU system. This would provide two principal benefits; call detail for
          certification procedures which can be sorted and analyzed to USITC requirements and
          possible cost savings through a reduction of phone lines and special features.

          Based on discussions with USITC's telecommunications provider, we offer the following
          suggestions regarding a possible means to introduce Norstar KSU-based call detail
          reporting at least cost. The focus is not only on providing the basis for cost controls,
          but to publicize throughout the organization that there is the means to do so. This has
          a deterrent effect on potential abusers, since the capability for the kind of random
          sampling we propose as a baseline system has been demonstrated (since the President's
          Council on Integrity and Efficiency report) to be effective.

          USITC will require 11 SMDR cards (one for each KSU.) At $220 each under the GSA
          contract, this would cost $2,425. In order to facilitate full-time monitoring, a dedicated
          PC (with 2 megabytes of RAM and an 80386 or faster processor) would be needed at
          each station, each with its own copy of the necessary CDR software.                    Our
          recommendation for the baseline version would be for CDR to be set up on one such PC
          and for monitoring of KSUs to be scheduled on a random basis for a given period (one

UK                                            - 23 -
&W
                         US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                 FINDINGS AND RECOMMENDATIONS


           or two weeks at a time) before being removed. The software cost (from Syntec, the
           third-party supplier recommended by Bell) is approximately $1,200. If USITC has a PC
           available that meets the specification recommended, the only additional cost would be
           for a 25-pin or 9-pin serial cable ($15.)

           Note: A baseline in-house CDR capability can be established for under $3,700. in this approach, the
           key wJ11 be the deterrent effect of announcing the capability of in-house call detail capture on a random
           basis as much as the actual reporting to emerge. This approach minimizes cost and counters potential
           objections based on the volume of information that call detail systems can generate, while establishing
           the importance of CDR to cost certification and future cost recovery efforts. If this baseline system
           is seen as effective, additional PC's and software can be established. Note that only the 250 or so
           KSU-attached lines can be tracked-moving additional lines into available KSU ports may also be worth
           considering.

     Management's response

     "DISAGREE. As a result of the preliminary list of findings and recommendations provided
     April 1993, the use of call detail reporting was evaluated while the audit was still in proqress,
     Based on that review and information provided by Urbach Kahn & Werlin, call detail reporting
     is judged not to be cost effective for local calls. OIRM is currently performing call detail
     reporting and certification for both domestic and international long distance calls as part of
     their telecommunications cost center management responsibilities.

     Urbach Kahn & Werlin indicate that the minimum hardware and software cost to establish any
     local call detail reporting capability is $3,700. In addition, other costs would be incurred
     including training, OIRM staff time for operating the call detail system, an Office Director staff
     time for reviewing and certifying the call detail reports .. ,. The cost of a local telephone call
     is 6.5 cents. To recover the hardware and software investment, at least 56,000 local calls
     will have to be eliminated. For every hour that agency staff spend operating the call detail
     system, producing call detail reports, and certifying the results, another 400-500 local
     telephone calls will need to be eliminated to produce any savings. These ratios of costs to
     benefits indicate to OIRM staff that call detail reporting for local calls is not cost effective.

     In addition, the call detail reporting system recommended by Urbach Kahn & Werlin can only
     work with telephones connected to Norstar KSU's. Therefore, it focuses on just a limited
     number of users and offices, primarily: Commissioner Offices, the General Counsel, Office of
     Unfair Imports, and the rest of the office directors and their immediate staff. It does not
     provide for any call detail reporting for other agency staff. As such, the proposed call detail
     reporting system is not a random sample, nor does it provide universal coverage. Since it can
     only identify selected staff, it is and could appear to agency staff as discriminatory. "

     UKW's comment

     Management's response appears to focus on the cost recovery aspect of the "limited CDR"
     recommendation and fails to mention the other factors underlying our assessment. These
     factors include the potential for full call detail capture (not just local calls), deterrence of
     wasteful or abusive practices, more ready detection of exception conditions, and more timely
     reporting. The call detail to be provided by GSA, when available, will arrive a month or more
     after the fact.



UK                                                   - 24 -
&W
                       US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                              FINDINGS AND RECOMMENDATIONS


     Through our understanding of PCIE, and in discussions with several organizations, we believe
     that the perceived limitations of the proposed partial CDR are neither discriminatory or
     selective.

     The deterrent effect of the announcement of a general CDR capability (where none is currentlv
     enforced) has been adequately demonstrated in other reports, including PCIE. We also believe
     that the KSU limitation need not be publicized.

     Since the deterrent effect extends to all "non-business calling patterns" (not just local cans),
     we believe that cost justification for this recommendation not be limited to local calls.
     However., even if savings of local calls were the only consideration, we note that 56,000 local
     calls represents an average of less than 2.4 calls per week for each of USITe's 450
     employees. This number does not appear to be unreasonable.

     With respect to the issue of "random sample" or "universal coverage," we note that the
     primary goal of the recommendation is not to target individuals or even specificallv to "identify
     selected staff." The primary goal is to provide a basis for the capture at information related
     to calling patterns by department or office, to identify exceptions where practical, and to
     facilitate development of cost control strategies based on the ability to monitor usage. As
     with our recommendations concerning suballocation of budget controls, the aim is to rnove
     towards the general government goal of "direct accountability." The atternative is to continue
     to allow access to telecommunications services with only after-the-fact, partial certification
     of costs.




UK                                             - 25 -
&W
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                FINDINGS AND RECOMMENDATIONS


     E) USITC SHOULD RE-EVALUATE ITS MAILROOM SERVICES CONTRACT.

       Condition

       Mail service operations within the USITC have been contracted with one firm since 1988.
       Since that time, only limited operational or technological changes in mail or package delivery
       have occurred. As a result of regulatory changes and concerted efforts bv manaqernent to
       reducemailrngcosts.USITC will experience several significant changes in its mail service
       operations including:

       1)    mandatory metered mail
       2)    the possible use of the U.S. Government Printing Office, and
       3)    the possibility of utilizing presorting.

       Criteria

       48 'CFR 19.201 states "It is the policy of the Governmenr to place a fair proportion of its
       acquisitions, including contracts and subcontracts tor subsystems. essemblies, components,
       and related services for major systems, with small business concerns and small dlssdvsnteqed
       business concerns. "

       Cause

       This condition is caused by new policies and procedures being implemented.

       Effect

       Due to the changes in work load and staff training requirements, contractinq the mailroom
       services may no longer be cost effective or efficient. A preliminary analysis indicates that
       eliminating the contract could potentially save up to $40,000 per year for USiTC. This
       preliminary calculation is based on information obtained from the Office at Personnel and
       assumes that no changes from current staffing levels are required. This analysis also excludes
       additional overhead and administrative costs related to maintaining employees in the
       rnailroorn.

       Recommendation

       10.   USITC Administration should reassess its mailroom services contract.

             Management should re-examine the contract for mailroom services and consider the
             effect of other factors such as flexibility under the contract, cost of transitioning the
             mailroom to new staff, the "trust" factor (an employee in the office did not "trust" the
             mailroom operations and personnel because they were not Federal employees), and the
             political ramifications of increasing USITC's FTEs. Another significant factor to be
             considered is the effect other upcoming events will have on the mailroom workload,
             such as metered mail (direct accountability) requirements and other postage and mailing
             reduction efforts underway by USITC. Management should weigh the benefits against
             the additional costs in contracting out this service.


UK                                               - 26-
&W
                         US INTERNATIONAL TRADE COMMISSION

      ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                FINDINGS AND RECOMMENDATIONS


      Management's response

       "PARTIALLY AGREE. While we agree that the maiiroom services contract should be reviewed
       for the type of services required of a contractor, we disagree that contracting for mailroom
       services is not cost effective or efficient. We had several years of experience with trying to
       maintain a stable government employee workforce for the types of activities covered by the
       contract (i.e. mailclerks, laborers and driver) and found that since there is consistently high
       personnel turnover that we were frequently having to reduce services or press other people
       into temporary service to get the job done. The ITC has had a contractuai arrangement since
       October 1,1988 and it has worked very well because the contractor is obligated to have a
       full workforce at all times. The contract provides the capability to add more laborers on short
       notice for special jobs. A recent example was the need to set up three hearing rooms for the
       steel case on short notice. Even if authority were available to hire Federa! employees to
     . perform these activities Administration would make the case that contracting is the better
       approach . .As for the 'trust' factor mentioned in the audit it is noted that this observation was
       made by only one person.

      Administration is assessing the new mail room contact which will begin in FY 1994 ir. light of
      changes to metered mail and the possibility of changing mail delivery procedures in order to
      reduce the cost of the contract."

      UKW's comment

     Our major concern is that the mailroom services contract should be reassessed. Cne possible
     consideration in that assessment is whether contract services continue to be cost effective
     and efficient in FY 94. The key concern was not whether to contract or to use Federal
     employees to staff the function.

     The focus of the recommendation is on whether the contract (as it stands) provides for
     sufficient control over mailing procedures. This includes wnether the current contract
     employees can handle the shifting workload anticipated based on initiatives like the changes
     in bulk mailing procedures and whether metering will have an impact on the skills and staff
     levels needed.

     The "trust factor," although minimized in management's response, is not insignificant. It is
     essential for the mailroom handlers to be sensitive to the control procedures, tracking needs
     and prioritization of services provided. Even if a contract service is used, USITC staff have
     a right to expect mail to be handled in strict accordance with applicable guidelines. The
     examples we cited relating to exceptions to documented procedure and the perceptions of
     staff regarding the mailroom are issues which should be considered.

     We also continue to believe that the cost effectiveness of contracting services should be
     considered in light of the possibility of competitive rebid (after six years) with the same
     contractor.




UK                                                - 27 -
&W
                          US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                 FINDINGS AND RECOMMENDATIONS


     F) USITC SHOULD CONSIDER UTILIZING THE MINIVAN OR SEDAN FOR
        DELIVERIES.

       Condition

       We noted several occasions in which USITC utilized their regular courier service to send
       reports or documents within the metropolitan area when the USITC minivan or sedan was not
       in use. Our testing of logs for calendar year 1992 showed that, on average, the USITC's
       minivan was used less than ninety minutes per day and that the sedan was used less than
       three hours per day. We understand that mailroom staff have been instructed that the van
       is not to be used for any trips other than for furniture and file transportation, and for making
       "burn runs" to destroy USITC confidential material; however, there is no written policy on
       appropriate use. The sedan is, however, being used tor some messenger delivery and pickup
       service.

       Criteria

       USITC Directive 3003 Paragraph 3 states "Since there are; at times, competing demands for
       the use of the sedan, the following priorities are established:

       (1)   Transportation of USITC employees for emergency health reasons
       (2)   Commissioners...
       (3)   Other official business, such as transporting staff... and special package deliveries. "

       The USITC Administrative Services Procedures Handbook p.14 states" The mailroom may use
       the agency driver to make special package deliveries for USITC personnel when the driver is
       not scheduled for other priority services. The mailroom will contact a local courier service for
       USITC personnel when the driver is not available."

       Cause

       There appears to be some misunderstanding between the mailroom staff and OMS personnel
       regarding the use of the vehicles or courier services for package delivery.

       Effect

       The minivan or sedan may be underutilized, while USITC is paying for courier services which
       USITC may be able to provide for itself.

       Recommendation

       11.   OMS should review the availability of USITC vehicles for local delivery.

             The operating costs of USITC vehicles are mostly fixed costs (as the lease payments are
             fixed) and the labor costs still would be incurred in the mailroom if the vehicles were not
             in use. It appears that USITC could reduce their special mail and courier costs if the
             vehicles were used to provide some of the messenger deliveries currently contracted
             out. We recommend that all employees be reminded of the scheduling requirements for
             utilizing USITC vehicles and that USITC vehicles be utilized for

UK                                                - 28 -
&W
                        US INTERNATIONAL TRADE COMMISSION

      ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               FINDINGS AND RECOMMENDATIONS


           messenger deliveries where courier services add surcharges (such as rush deliveries,
           round trip charges) which add substantially to the cost of their services. To the extent
           possible, these deliveries also could be coordinated to include metropolitan area next day
           deliveries currently being sent by courier.

     Management's response

     ~ AGREE. In so far as OMS can utilize either vehicle without interfering with services to
     Presidential appointees or otherwise interfering with mission accomplishment, it will continue
     to do so.

     However, a factor weighing against the practical utilization of the van or seaan for this
     purpose is the need for two persons to accompany it in most instances. That is, legal parking
     spaces around most pick up and delivery sites are at a premium, necessitating one person to
     'run' the package in, or pick the package up, while the other person stays with the vehicle
     and circles the block."

     UKW's comment

     Our review of delivery services indicated that USITC vehicles may be able to be used for
     deliveries, if not scheduled for other purposes, based on the amount of time they are available
     and unused or unscheduled. Clearly, our recommendation was net intended to suqqest OMS
     "interfere" with the organization's mission. If the vehicles are required to be on standby for
     unscheduled use by Presidential appointees, the policy directive should reflect this use.

      With respect to the staffing issue, one of the considerations for use of the vehicles for
     .deliverv will be staff availability (one or more. as noted), and the importance or urgency of the
     item to be delivered. Consistent with our ove ..all recommendation co.tcerninq guidance on the
      use of "priority services, n we believe that the use of fixed-cost agency vehicles and courier
      services should be assessed in light of improved guidelines on how to define whether same-
      day, overnight or two-day services should be used.

     Finally, we note that many deliveries are to and from government agencies.              Thus,
     Commission vehicles could likely park in reserved spaces at these locations, allowing for one
     staff driver to be sufficient.




UK                                              - 29-
&W
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               FINDINGS AND RECOMMENDATIONS


     G) LOGS SHOULD BE'MAINTAINED AT FACSIMILE MACHINES.

       Condition

       Certain USITC facsimile machines did not retain transmittal cover sheets or the machine-
       generated activity logs at the fax location to monitor the usage of the equipment. Other than
       the call detail generated for fax calls, there is no record of incoming/outgoing fax activity.
       Since fax calls can be lengthy, there is a possibility of associated costs being unaccounted
       for. Additionally, there is the potential for unauthorized use.

       Criteria

       GAO's Standards for Internal Control in the Federal Government outlines standards for an
       agency's system of internal accounting and administrative controls which includes the
       statement that:

             "Access to resources shall be limited to authorized personnel. Access includes
             both direct physical access and indirect access through tne preparation or
             processing of documents that authorize the use or disposition of resources.
             Periodic comparison shall be made of the resources with the recorded
             accountability to determine whether the two agree.         The frequency of the
             comparison shall be a function of the vulnerability of the asset. "

       USITC Directive 3402.1 Paragraph ge provides guidelines for the use of the facsimile
       equipment that include

             "Offices which have facsimile mechines are encouraged to maintain logs of
             messages sent to provide backup for supervisory certification that such messages
             were for official business purposes should such certification be audited. "

       Cause

       It appears that detailed procedures for the development of the logs, as well as determining
       staff responsible for the maintenance of these logs, was not adequately delineated.

       Effect

       Since facsimile machines are used by many different employees, call detail reporting alone
       would not provide enough information on the use of the equipment for call certification
       procedures. Without the use of logs or transmittal cover sheets indicating which staff used
       the equipment and when, USITC does not have adequate records to perform call certification
       procedures.




UK                                              - 30 -
&W
                         US INTERNATIONAL TRADE COMMISSION

      ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                FINDINGS AND RECOMMENDATIONS


      Recommendations

      12.   OIRM should establish structured procedures to collect fax usage information .

            .The Office of Information Resources Management should be assigned the responsibility
             to track facsimile machine usage, perhaps by instituting a simple policy to gather
             information needed to facilitate tracking the volume and purpose of facsimile machine
             calls.

            Such a policy might include the maintenance of a notebook or binder at each machine
            to retain transmittal cover sheets as documents are sent. When the machines print out
            the periodic activity reports, this detail can be cross-referenced to the transmittal cover
            sheets, or other call detail reports, and be used for call certification procedures.

      13.   USITC guidance should be updated to include fax tracking procedures.

            Employee guidance documents which outline proper equipment usage (such as the
            Administrative Services Procedures Handbook or the USITC Telephone Directory, should
            be updated to inform employees of the proper procedures for implementing these logs.

     Management's response

      "DtSAGREE. The major cost component of using a facsimile machine is the cost of the
      telephone call. Domestic and international long distance calls are already being tracked and
      certified. It is not cost effective to track and certify costs associated with local calls. The
      purpose of a facsimile machine is to facilitate communication, not generate additional
     .bureaucracy. Urbach Kahn & Warlin has hot demonstrated or described any real or potential
      benefit of having logs, other than the ability for the agency to then develop "log" processing
      procedures. "

     UKW's comment

      Our recommendation proposed maintaining transmittal cover sheets (sent with faxes) and the
      activity logs (periodically produced automatically by the fax machines) together at or near the
      fax location. We strongly believe that the implementation of this procedure will not "generate
     -additional bureaucracy." The fax cover sheets are prepared anyway and the machine prints
      the log. V\'c continue to believe that these items can be helpful to managers seeking to certitv
      phone bills or to staff attempting to document the date/time of a transmission.




UK                                               - 31 .
&W
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                FINDINGS AND RECOMMENDATIONS


     H) USITC PERSONNEL SHOULD USE TELEPHONE CALLING CARDS WHILE
        TRA VELING ON OFFICIAL BUSINESS.

       Condition

       Although the amounts are generally not material, and the frequency not significant, certain
       USITC employees are charging hotel telephone calls through travel reimbursement vouchers.
       In all cases, the phone charges were billed by the hotel with a substantial markup. None of
       the travel reimbursement vouchers indicated there was an emergency situation or that the
       exception to the policy was reasonable.

       Criteria

       USITC Directive 3402 attachment, Guidance on Placing Long Distance Calls While Traveling
       on Official Business states, "While on trevet, use of a calling card is mandatory except in
       emergency" situations n •

       Cause

       It appears that USITC personnel may not fully understand the cost savings gained by using
       their calling cards while traveling on official business or that exceptions to this policy are
       required to be documented on the travel voucher.

       Effect

       USITC appears to have paid the more expensive hotel rates for these phone calls.

       Recommendation

       14.   OFB should ensure proper documentation of phone charges billed through hotels.

             The Office of Finance and Budget should continue to ensure compliance with USITC
             policy regarding the use of long distance telephone charges by securing appropriate
             documentation for phone charges submitted for voucher reimbursement.

       Management's response

       n AGREE. USITC Directive, No. 3402.1, Control and Usage of Government Owned or Provided

       Telecommunications Systems and Service, states that 'While on travel, use of a calling card
       is mandatory except in emergency situations.': For employee's safety, convenience, in
       instances where the Government calling did not work, and with the thought of facilitating, not
       hindering the employee's mission, we have used our judgement to allow reasonable telephone
       charges on the hotel invoices. While we have questioned the non-use of a Government calling
       card we have not always documented it.

       OFB will remind cost center managers of the requirement to use a Government calling card
       and we will assure proper documentation for all telephone costs on travel vouchers."



UK                                              - 32 -
&W
                      US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                             FINDINGS AND RECOMMENDATIONS


     UKW's comment

     Our recommendation sought to clarify policy with respect to use of cards on travel. In this
     regard, USITC's policy clearly requires documentation and deters use of hotel phones when
     card can be used.




UK                                           - 33 -
&W
                            US INTERNATIONAL TRADE COMMISSION

           ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                   FINDINGS AND RECOMMENDATIONS


     I)   USITC SHOULD DETERMINE THE                        WHEREABOUTS          OF ALL       ACTIVE
          TEMPORARY CALLING CARDS.

          Condition

          In connection with our review of USITC's policies for handling temporary telephone calling
          cards, we noted seven temporary US Sprint calling cards and seven temporary AT&T calling
          cards which were logged out as of the day of our review. Some of these cards have
          apparently been logged out since 1991. We also noted twelve instances in which temporary
          calling cards received by USITC were not added to the log book and were not in the safe in
          the Office of Finance and Budget (OFB). Finally, we noted two instances in which calling
          cards returned to OFB were not properly logged back in.

          Criteria

          . GAO's Standards for Internal Control in the Federal Government outlines standards for an
            agency's system of internal accounting and administrative controls which includes the
            statement that:

                "Access to resources shall be limited to authorized personnel. A ccess includes
                both direct physical access and indirect access through the preparation or
                processing of documents that authorize the use or disposition of resources.
                Periodic comparison shall be made at the resources with the recorded
                accountability to determine whether the two agree.         The trequencv of the
                comparison shall be a function of the vulnerability of the asset. "

          Cause

          .While the Office of Finance and Budget maintains a log for the issuance of temporary calling
           cards, it appears that this log is not being controlled properly, nor used to periodica!ly
           reconcile the whereabouts of outstanding cards and ensure that they are returned by the
           traveler in a timely fashion.

          Effect

          Active temporary calling cards may be used for unauthorized use.

          Recommendation

          15.   OFB should ensure that all "temporary' calling cards are accounted for.

                USITC should obtain current lists of all active temporary calling cards, determine their
                whereabouts, and cancel any cards which are unaccounted for. This process will reduce
                the risk of unauthorized use of USITC's calling cards. USITC also should deactivate and
                destroy any excess temporary calling cards and retain only a minimum number of
                temporary calling cards.




UK                                                 - 34 -
&W
                       US INTERNATIONAL TRADE COMMISSION

      ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                              FINDINGS AND RECOMMENDATIONS


     .Controls also should be established to ensure temporary cards issued are returned in a timely
      fashion (such as adding an expected return date to the log). OFB staff would be responsible
      for periodically reviewing the log for cards not returned by the expected return date.

     Management's response

     "AGREE. The twelve Sprint calling cards not added to the log book and not in the safe were
     found in a locked file cabinet. These additional calling cards were requested so that OFB
     could assure adequate availability when required by travelers (see requirement in
     recommendation #14 above). The number of calling cards on hand (Sprint and AT&T), in our
     opinion, are the minimum number required to properly service Commission travelers.

     As stated above, the use of calling cards is monitored by the Office of Information Resources
     Management who require certification of the charges from appropriate cost center rnanagers
     on a monthly basis. The Office of Finance and Budget will maintain a current listing of all
     calling cards issued by OFB, and will reconcile this list on a monthly basis.

     The AT&T calling cards issued by OFB are not intended to be 'temporary'. In prier years it
     became apparent that by utilizing temporary calling cards we could not determine
     responsibility for the costs. We therefore secured additional AT&T calling cards, issue them
     permanently to travelers and DO NOT want them returned until the employee leaves the
     commission.

     Sprint calling cards issued by OFB are intended to be 'temporary'. Permanent Sprint caliing
     cards are issued by OIRM. OFB will establish procedures to assure that the temporary calling
     cards it issues are returned in a timely fashion. n

     UKW's comment

     No comment considered necessary.




UK                                            - 35 -
&W
                            US INTERNATIONAL TRADE COMMISSION

          ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                   FINDINGS AND RECOMMENDATIONS


     J)   USITC SHOULD HA VE AN AIRBILL, OR AUTHORIZED SIGNATURE ON THE
          AIRBILL, FOR ALL FEDERAL EXPRESS DELIVERIES.

          Condition

          Some Federal Express official outgoing letter and package deliveries appear to bypass the
          mailroom and, as such, there is no record of the airbill within USITC. Consequently, there
          was no authorized signature on the airbill (usually the mailroom staff authorize pickup). These
          deliveries were apparently sent by using the ground floor Federal Express drop box and copies
          of the airbill were not provided to the mailroom. We also noted that there are 110 controls over
          preprinted Federal Express airbills as they can be obtained from the mailroom, supply cabinets,
          and some employees' desk drawers. The current method of tracking Federal Express airbills
          provides for utilization without accountability.

          Criteria

          The USITC Administrative Services Procedure Handbook states, "Anyairbilis that are returned
          to the Commission without an authorized signature are treated as an unauthorized
          procurement". As all of USITC's regular Federal Express- pickups are made in the rnailroorn.
          only mailroom personnel are authorized to sign for outgoing Federal Express deliveries.

          Cause

          By USITC personnel not providing the pink copy of the arrbill to the mailroom, there was no
          record of the airbill within USITC. OMS staff also are not reconciling airbills to Federal
          Express invoices provided to them for approval by the Office of Finance and Budget.

          Effect

          This discrepancy provides a much greater potential for misuse as indicated by the testing
          implemented. In addition, the figures that OMS uses on reports for internal purposes (but not
          for budgetary purposes) were understated because they were calculated based on the number
          of pink airbills in the mailroom. Due to inconsistencies in accounting procedures for costs
          between the mailroom and OFB, the quantity of missing airbills cannot be reasonably
          estimated.

          Recommendation

          16.   OMS should take steps to improve control over Federal Express airbitls.

                USITC should implement procedures to control or limit access to preprinted Federal
                Express airbills, and use cost codes to help certify airbills as official business. In
                addition, USITC should reconcile ml invoice charges to airbills to determine who is not
                submitting airbills to themailroom.This would also be an appropriate area to
                suballocate budgeted costs for increased accountability as discussed in
                Recommendation 2.




UK
&W
                        US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                               FINDINGS AND RECOMMENDATIONS


     Management's response

     "AGREE. In reality, the Office of Management Services (OMS) must balance the needs of its
     clients with the optimum of protection. In order to improve controls while maintaining user
     requirements, OMS will develop procedures for airbill or waybill vendors."

     UKW's comment

     We had observed that airbills in many cases were readily accessible to staff (and others), and
     that drop' points (such as that for Federal Express) were not supervised adequately tc prevent
     misuse. The procedures to control airbill services, as noted in the management's response,
     appears to be the start of corrective action in this regard. It is critical that airbills be abie to
     be matched against invoices for such deliveries.




UK                                               - 37 -
&W
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                FINDINGS AND RECOMMENDATIONS


     K) USITC SHOULD REDESIGN THE VEHICLE TRIP LOG.

        Condition

       Staff within the Office of Management Services currently generates a computer report listing
       each trip made by the sedan, odometer readings. time of each trip and number of passengers.
       This information is obtained directly from the manual log maintained by the driver of the sedan
       as each trip is made. Not only does this report repeat the data on the manuai log, but we also
       noted numerous discrepancies between the manual log and the computer report. The
       computer-generated report does not appear to be reviewed or used by management for
       analyzing the sedan usage. We also noted that the manual trip logs do riot have space for
       drivers to indicate the purpose of the trip.

       Criteria

       Proper personnel management requires that staff efforts be spent to assist management
       obtain adequate intorrnation to promote improved management decision-making.

       USITC Directive 3003 states that when employees call to schedule the sedan, ernplovees
       should "indicate the (a) time of departure, (b) purpose of trip, ic) how many will be in the
       party. and (d) whether the party will need to be picked up ... ".

       Cause

       Procedures for OMS to document the specific purposes for which USITC vehicles eire used
       are not enforced and the mechanism for enterinq the data into the computerized system does
       not ensure accurate transcription.

       Effect

       OMS staff appear to be spending considerable time preparing reports that are not currently
       reviewed or used by management. Also, while the logs currently indicate passengers and
       destination: trips to the Navy yard by the minivan cannot be reviewed to determine the
       purpose of each trip (furniture, 'burn' run, etc.).

       Recommendation

       17.   OMS should redesign the vehicle trip log.

             We understand that during the course of our review, the maintenance of the
             computerized trip log has been discontinued. We recommend. however, that the manual
             vehicle trip log should be redesigned to ensure inclusion of the purpose of each trip, and
             ensure their use conforms with USITC policies and directives.

       Management's response

       "AGREE. Documenting procedures are enforced. However, documenting the "purpose" of
       Commissioner trips is 'transporting Commissioners' and the location and number of                  .
       passengers, if any.   Further information on the business purposes of a particular

UK                                               - 38 -
&W
                       US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                              FINDINGS AND RECOMMENDATIONS


     Commissioner's trip may be sought by the IG from the Commissioner. Vehicle use reports are
     reviewed by the Chief and Assistant Chief, Facilities Management Division and the Director,
     Office of Administration. In any case, OMS has made the following recommended changes:

     1.   The computerized vehicle log has been eliminated
     2.   The manual trip log has been redesigned."

     UKW's comment

     Our reading of the logs contradicts management's response that" ... documenting procedures
     are enforced ... ". except at a rudimentary level. We continue to stress that the "purpose" of
     vehicle trips was not often given. In this regard, we do not believe that "transporting
     Commissioners," a fact evident from reviewing the passenger list, sufficiently identifies the
     "purpose" of the trip. We thus continue to believe that improving the 109 will likely minirnize
     future uncertainty regarding "purpose."




UK                                             - 39 -
&W
                                               SECTION IV
                                           OTHER MA TTERS
                                         AND SUGGESTIONS




UK
&W   ~~~~~~~iiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiiii~~iiiiiiiiiiiiiii~
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                OTHER MATTERS AND SUGGESTIONS




     L) USITC IS NOT BEING PROPERL Y CHARGED BY GSA FOR SPECIAL PHONE
        LINE FEA TURES.

       Condition

       In connection with our review of the WITS billing reports for fiscal year 1993, we noted that
       USITC was not being charged for special line features (i.e. call forwarding, call waiting, etc.)
       in accordance with established rates set by GSA. It would appear, however, that GSA has
       begun to correct this situation in recent months and soon may begin properly charging USITC
       for these services.

       USITC may discover a significant increase in their WITS service costs (relative to budgeted
       amounts) as GSA begins to bill properly for line features such as three-way calling, speed dial,
       etc. Our review database of USITC line features indicates that about $50,000 per year in
       feature charges alone can be assessed based on the features currently installed en ali US1TC
       lines, according to the WITS rate chart for the features.

       Suggestion

       USITC'should implement procedures to ensure telephone features are maintained at optimal
       levels and to reduce anticipated future increases in charges from GSA. In addition, the impact
       of the expected FTS-2000 change to usage-based (rather than fixed line-cost) billing should
       be addressed before the change goes into effect, so appropriate cost control methods can be
       considered.

       USITC should monitor its WITS charges closely in relation to the amounts budgeted for this
       service to determine if these feature costs are increasing the amounts paid for WITS. The
       additional costs for these services may be offset by reducing the total number of active
       telephone lines within USITC as -well as the number of features, the assessment of which
       would be greatly facilitated by maintaining an up-to-date line inventory.

       Management's response

       "AGREE. OIRM agrees that GSA is not properly charging for special phone line features. In
       addition, as the audit report notes, GSA is expected to change from a fixed line-cost basis to
       a usage-based costs for FTS 2000 service. OIRM does not have sufficient information at the
       present time to project the overall impact of these GSA changes.

       The proposed action is a combination of the proposed actions for items 1. and 7. above.
       Directive 2103, revised to assign responsibility for usage charges to users and their respective
       supervisors addresses the issue of conversion from line-based to usage-based charges.
       OIRM's use of the automated inventory as established in recommendation 7. and the
       procedures for periodic review will ensure telephone features and number of lines are
       maintained at optimal levels and thereby address costs associated with correct billing by GSA
       for line features. With increased cost center monitoring and a corresponding decrease in the



UK                                               - 40 -
&W
                          US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                OTHER MATTERS AND SUGGESTIONS



        overall number of lines and features in the inventory, the possibility exists that annual charges
        would remain at previous levels."

       UKW's comment

       We note that OIRM acknowledges that it lacks information to project the impact of the GSA
       changes. We trust, however, that our recommendations regarding line inventory and data
       collection will allow such projections to be made in the future, as needed.


     M) MANDATORY POSTAGE METERING WILL LIKEL Y INCREASE COSTS.

       Condition

       During 'our review, we noted situations which would allow for inaccurate tracking or
       accounting for postage costs:

       •     Through tests and interviews with USITC personnel, it was noted that some United
             States Postal Service (USPS) official business outgoing mail and packages had bypassed
             the mailroom. These items were dropped off by staff in the ground floor drop box or
             other mailboxes outside USITC property. Since all official mail is supposed to be
             accounted for in the mailroom, and since the USPS does not currently report mail
             volumes back to the originating agency, costs associated with mail that bypasses the
             USITC mailroom are not being captured.

       •      We also noted that several areas of controls were not tested by OMS' Internal Control
              Review of Mail Services dated June 30, 1992, including the mailroom's handling of
              mass mailings of print shop publications. We noted that the areas in which exceptions
              were found in our testing previously had not been tested, such as whether each piece
              was properly weighed and each address examined for destination. We also noted 0'18
            . instance in which a package was not shipped using the lowest cost service, which
              conflicts with the FMFIA review indicating consistent adherence to 'least-cost' mail
              methods. Based on our tests, we noted two conditions: 1) that routine mail handling
              does not follow documented procedures, and 2) the FMFIA internal review process,
              based on these same documented procedures, may not be a reliable basis for asserting
              the status of the control environment.

       •     We also noted that the amount actually paid and reported to the USPS for fiscal year
             1992 postage was approximately $166,000. The amount of costs calculated by the
             mailroom was approximately $257,000. The $166,236, however, was paid and
             accrued as a result of an allowable USPS sampling technique which was intended to be
             representative of USITC's actual usage.

       Mandatory metering procedures, when implemented, may result in a significant rise in postage
       costs since this system will ensure all USITC mail costs are captured.



UK                                                 - 41 -
&W
                       US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                             OTHER MATTERS AND SUGGESTIONS



     A portion of the routine mail appears to be improperly segregated by weight and address to
     ensure accurate tracking on the mailroom computer, which at present is the primary means
     to assess volume. For example, a report mailing of over 800 pieces was tracked by weighing
     one piece and developing a standard domestic mail charge, then multiplying that charge by
     the piece count. However, the mail list for the report included over 40 international
     addresses, which could be expected to cost more to mail; in this case, only the combined
     domestic USPS charge was captured.

     We also noted instances where it appears that some USITC personnel are unaware that by
     using the ground floor USPS drop box for official business, they were bypassing the mail room
     and its mail volume tracking system, leading to an indeterminate amount of understatement
     of total mail volume.

     The. significant difference between the amount of postage paid to USPS and the amount
     accrued on themailroom computer appears to be primarily due to the fact that the actual mail
     volume for three of the four weeks sampled according to Penalty Maii reimbursement rules
     incurred significantly lower than average postage volume.

     Suggestion

     USITC should anticipate a significant increase in fiscal year 1994 postage expense when
     metering is implemented. Therefore, we urge consideration of several measures to improve
     the ability to track costs in line with the move, to 'direct accountability". These include
     considering the use of the USPS's Official Mail Accounting System (OMAS) subaccount
     reporting mechanism which allows departmental budget or activity codes entered on mail to
     be tracked and returned to USITC on tape.

     We have identified a method whereby USITC could track their actual postage costs
     departmentally beginning in fiscal year 1994 using the USPS's OMAS which would aJ!ow
     USITC to track postage costs and activity more accurately.

     We suggest that OMS inquire further into cost code reporting before the direct accountability
     (meter mail) becomes effective October 1, 1993. A brief overview of cost code reporting is
     as follows:

          Cost codes are subaccount numbers that may be used on direct accountability postage
          documents (i.e. envelopes), at USITC's option, to identify component units of the
          department responsible for the transactions. They have no meaning to, and are not used
          by, the USPS. As a service, USPS enters cost codes into the OMAS when provided by
          USITC. USITC may use this data provided on tape by the USPS to track postage costs
          by departments. Cost code usage does not affect the budget process, but rather
          provides management with information to determine where the costs are being incurred
          and for how much. Existing code systems, including department budget code, block
          number or ARS code could be used.

     We understand that the metering equipment being proposed for installation by USITC to fulfill
     fiscal year 1994 postage requirements may itself incorporate features that would facilitate

UK                                            - 42 -
&W
                      US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                            OTHER MATTERS AND SUGGESTIONS




     some form of cost code reporting and/or chargeback. We recommend that the capabilities,
     costs and administrative overhead associated with tracking mail using the in-house metering
     system be weighed against a similar review of OMAS capabilities and costs.

     Proper matlroorn operating procedures should also be documented in greater detail to ensure
     contracted mailroom personnel are following established USITC Directives and guidance. In
     this regard, USITC may consider publishing a detailed mailroom operating manual which
     incorporates the direct accountability procedures to improve guidance to mailroom personnel.

     Management's response

     "The Office of Management Services agrees that postage will likely increase. OMS has
     coordinated the issue of postage cost increases with senior management and the Office of
     Finance. and Budget. Both have been made aware for several fiscal years that increases were
     highly likely, and they endorsed OMS' decision to save Commission funds in the interim.

     In early FY 1993, OMS undertook a proactive review of the issue of accountability, including
     a review of the 'OMAS' system.

     OMS found that by capturing data at the point of metered postage application, which can be
     accomplished by acquiring the appropriate system; and by establishing appropriate contractor
     procedures, OMS can establish department accountability where needed (with little or no
     impact on the customer). This also allows the Commission to consider 3rd/4th Class f\/laii
     commingling.

     OMS' study of the CMAS system found it to be impractical and unnecessary. The OMAS
     system requires that each Commission staff member handcode in a specific location on each
     mail piece a special discrete code. OMAS then captures the incidence of these codes and
     returns this data in set, non-manipulable format on a 15 inch tape reel (which cannot be read
     inhouse).                                                 .

     OMS will have an automated postage metering system with accountability capability in place
     prior to October 1, 1993. n

     UKW's comment

     Our interview with OMS staff did not disclose that OMAs had been reviewed "in early FY 93. n
     As we noted, the metering equipment "may itself incorporate features that would facilitate
     some form of cost code reporting and/or chargeback." With management's acknowledgement
     that these features are available, the comments regarding OMAS are not the primary issue.




UK                                           - 43 -
&W
                         US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                OTHER MATTERS AND SUGGESTIONS




     N) USITC SHOULD CONSIDER ALTERNATE VENDORS FOR ITS GE,VERAL
        COURIER SERVICES.

       Condition

       We noted that USITC has contracted with one general courier for the last several year.s
       without documenting any consideration of competing vendors. USITC also uses three
       different courier services procured for three different offices within the USITC: the Office of
       the Secretary, OIRM and OMS. We have also noted concerns from employees about the
       quality and availability of services provided by the USITC's general courier (specifically, staff
       noted that the courier was not always available according to the regular work schedule of
       USITC or after hours.)

       Suggestion

       USITC should obtain written quotations from other courier services within the metropolitan
       area in order to determine if the USITC's current vendor is the most efficient for its needs.
       Management also should discuss the possibility of consolidating the courier services to
       increase their cost effectiveness.

       Alanagen1ent~ response


       "OMS concurs with the need to reduce the costs of conveying materials to the maximum
       extent possible. Courier trips will be done by ITC driver/messenger where possible. Courier
       contracts will be combined, where appropriate."

       UKW's comment

       Our original comment only suggested "consideration" of alternative vendors. Obviously, if
       there are means to streamline courier contracts or use USITC vehicles, these should also be
       examined.


     0) USITC SHOULD EVALUATE ALTERNATIVES FOR LOCAL OVERNIGHT
        DELIVERY.

       Condition

       We noted that the mailroom generally does not use any next-day services within the
       metropolitan area. If a package/letter delivery is required within the metropolitan area,
       USITC's general courier is used. When the next-day service was used {Federal Express), it
       was in violation of the terms of a GSA contract. USITC recently learned, however, that
       Roadway Package System has an overnight delivery service available for the metropolitan area
       with relatively low rates. The USPS also has next-day delivery services available that also are
       less expensive than courier service.



UK                                                - 44-
&W
                          US INTERNATIONAL TRADE COMMISSION

        ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                                OTHER MATTERS AND SUGGESTIONS




        USITC Administrative Announcement FY92-30 Change in Vendor for Overnight Package
        Delivery Service dated July 15, 1992 states" Federal Express should not be used to deliver
        packages within the metropolitan area." This policy is a requirement of the GSA contract with
        Federal Express.    Conversely, USITC Directive 3350.1 Mail Standards and Procedures
        indicates as an authority the Federal Information Resources Management Regulations 201-
        45.107, dated 7/1/90. Paragraph 3(e) of this section states, "Dispatch mail at the cheapest
        rate consistent with the need for service ",

        Suggestion

        USITC should consider establishing a clear policy for which services should be used for
        metropolitan area overnight package delivery service. Management should consider the use
        of USITC's vehicles for some deliveries when feasible. We also recommend that the mailroom
        consider using second-day delivery services through UPS or USPS under those circumstances
        in which timing is less critical.

        Management's response

        "OMS cannot develop a carrier specific policy for metropolitan area overnight package delivery
        service - nor can OMS override requestor's decision as to the expeditiousness of delivery
        required. OMS instructions to the contractor (formalized and provided to requestors) is that
        the lowest cost means available which accomplishes the requirement is to be used. The
        carrier changes as the prices fluctuate and also based on weight, location and speed required.
        OMS agrees that the Commission vehicle should be used when available. OMS will continue
        to consider 2nd day UPS or USPS where- appropriate."

        UKW's comment

        Our recommendation was not to ask OMS to " ... override (a) requestor's decision as to the
        expeditiousness of delivery required." Rather, our recommendation was to determine, in
        absence of specific instructions from the requestor, whether more cost effective means for
        overnight metro delivery could be employed. Roadway or UPS should be considered, and even
        recommended to the requestor by the mailroom as an alternative to courier, where
        appropriate. We understand that prices vary by a number of factors, including "weight,
        location and speed." In summary, USITC policy should require OMS and its contractor to
        proactively convey such information to US/TC's staff to help save costs by determining the
        best means to balance these factors.


     P) USITC SHOULD CONSIDER ESTABLISHING A FORMAL ORGANIZA TION PLAN
        FOR COMMUNICA TIONS SERVICES.

        Suggestion

        Although we noted no significant issues with the actual procurement of vendors providing
        communications services (many of the vendors are subject to mandatory contracts), we


UK                                               - 45 -
&W
                       US INTERNATIONAL TRADE COMMISSION

     ECONOMY AND EFFICIENCY REVIEW OF COMMUNICATION SERVICES

                             OTHER MATTERS AND SUGGESTIONS




     understand that there is no formal organizational plan for providing services within each area
     (telecommunications, mail and delivery services). In general, we believe that a regularly
     updated plan for implementing new services, technologies and operating methods can be
     extremely helpful to an organization in focusing on key issues for integration with current
     systems (including mandatory-for-use programs). Without such a plan, implementation of
     services can tend to be reactive rather than proactive in meeting the organization's emerging
     needs.

     Management's response

     "OIRM agrees the agency may benefit from having a more formal planning document for
     communications services. OIRM will develop a telecommunications planning document similar
     to the sample outline provided by Urbach Kahn & Werlin but tailored more to the lTC's needs.
     OIRM views the sample as a menu of possible areas to be addressed and will select for
     inclusion in the planning document those topics most appropriate to the agency.

     OIRM will develop and maintain a telecommunications plan that includes an overview,
     strategic plan, and operational guidance with a level of detail that fits the size and scope of
     agency telecommunications requirements.

     OMS believes that there should be a specific 'plan' for mail and courier services because of
     its fiscal and mission importance."

     UKW's comment

     The sample plan submitted was intended as an outline, and we acknowledge that the tailoring
     of this plan to lTC's requirements is not only appropriate, but essential.




UK                                            - 46 -
&W
                                                                 Appendix



                                                      AD-Q-626




August 30, 1993


MEMORANDUM


TO:          Inspector General                  ,A     ~ ~              I
FROM:        Director, Office of      Administra~
SUBJECT:     Draft Report, REconomy and Efficiency Review of
             Communications Services"

As requested by your memorandum dated July 22, 1993,
(IG-Q-037), submitted herewith are the responses from the
Office of Administration and the Office of Operations to
the subject draft audit report.     In accordance with
Section 11 of the OSITC Directive 1701, the Commissioners
have had an opportunity to comment on the response and the
Chairman has approved i t- (see attached memorandum). *

The attached response includes the actions to be taken and
the target completion dates.

Please call me at 205-3131 or Bill Stuchbery at 205-3135
if you have any questions.


ATTACHMENTS

cc:     Director,   Office   of   Operations
        Director,   Office   of   Information Resources Management
        Director,   Office   of   Finance and Budget
        Director,   Office   of   Management Services

                     * Memorandum not included in audit report
ADMINISTRATION'S AND OPERATION'S RESPONSES TO TIlE DRAFT AUDIT REPORT
      ON THE ECONOXY AND EFFICIENCY OF CO!OmHICAT:IOHS SERVICES

 RECOMMENDATION 1-2  Cost center responsibilities for
 communications budget object classes should convey authority for
 cost control.

 1.    Administration should modify Directive 2103.

       Although the majority of the telecommunications budget is
       controllable at the OlD level (such as procurement, WJ:TS
       and, for the meantime, PTS 2000), we recommend the language
       of USITC Directive 2103 be modified by Administration to
       convey a clear description of cost center responsibilities
       and where cost controls over utilization of usage-based
       services must be applied in all other departments using the
       service.

       USITC should establish allocation procedures for variable
       communications costs to allow recognition of such costs at a
       departmental level. This process would provide ~roved
       managemeat info~tion on the source of communications
       services "'Usage throughout USITC.

 RESPONSE: AGREE

 We agree that the language of USITC Directive 2103 could be
 modified to convey a clearer description of cost center
 responsibilities, and where additional cost controls over
 telecommunications must be applied. We also agree that a
 conveyance of communications costs to cost center managers by
 OID may provide tmproved management of these costs.   This
 requirement (a conveyance of communications costs) could be
 accomplished in conjunction with execution of the Commission's FY
 1994 budget.

 TARGET COMPLETION DATE:    December 31, 1993.


  2.   USITC should consider suballocating budget items.
        USITC should consider suballocating cost center controls for
        usage-based costs to the department level. This process, we
        believe, would bring USITC into better compliance with
        Pederal policies concerning certification of call detail
        reports. Suballocation would also provide better management
        info~tion regarding the expected and actual volume of
        variable overhead used by specific offices, which may result
        in lower costs.

        The Directive could be reworded to distinguish between
        authorization to 'acquire' or 'procure' services and
       authorization to 'use' services. This WDuld provide c1ear
       guidelines as to who is responsible for ensuring that the
       services obtained are used in a cost-effective manner.

RESPONSE: DISAGREE        *

While we agree that some form of office-by-office conveyance of
costs may be cost effective, we are not in agreement with an
office-by-office allocation of telecommunications budgets.
TeleconDunications costs should be higher in areas where the
workload is higher aDd lower in areas where the workload is
lower. Since we cannot even project our workload with much
accuracy, it may present a problem to project telecommunications
costs by office. ~ addition, a majority of these costs do not
usually vary with small office or program changes, and if
allocated: (1) would mave agency-wide savings from CODDIlission
control to cost center manager control; and (2) any savings :Ln
telecmmmD1ications costs may be less than the additional
resources required to generate them.

Also, the use of calling cards are monitored by the Office of
Info%DIAtion R.esources Management who currently require
certification of the charges fram appropriate cost center
managers on a:.monthly basis.

TARGET COKPLET:ION DATE:         RIA.


RECOMMERDAT:ION:

3-6. USITC should   ~rove policies or employee guidance on
       relative costs and proper use of communications services.

RESPONSE:       AGlmE

The Office of Administration will revise ~e US~TC Telephone
Directory and AdmiDistrative Procedures Handbook to include
infozmation and guidance on charges for use of mail, delivery
services, and telephones.

The Office of Operations (OIRM) will provide periodic bulletins
on procedures and charges associated with the use of telephones,
voice mail, fax machines, data transmission facilities and
related services.

TARGET COKPLET:ION DATE:          January 28,   1994


RECOMMENDAT:ION':

7-8~   USXTC should reassess telephone lines and features.

RESPONSE:        AGREE

       *   The Chairman modified this response as follows~
                "Could informally consider the issue by conducting an assessment
                of the issues and presenting findings and recommendations, if
                any, including some form of office-by-office conveyance."
The Office of ~fo~tion Resources Management will establish an
automated inventory of telephone lines and line features.
Procedures for maintaining the inventory and conducting periodic
reviews of telephone lines and features will be established.

TARGET COKPLE'l':I:OH DATE:    March 1.5, 1.994


RECOHHENDATIOH:

9•   Use of call detail reporting should he evaluat.ed

RESPONSE:     DJ:SAcmEE   *
PROPOSED AC'l'J:OH:   None

As a result of the  prel~minary list of findings and
recommendations provided April, 1.993, the use of call det:ail
reporting was evaluated while" the audit: was still in. progress.
Based on. that review and info:rmaticm provided by Urbach Kahn. &:
Warlin, call det.ail reporting is judged not to he cast effective
for local calls. OZllK is currently perform:l.n.g call detail
reporting and certification for hoth domestic and in.t~tiOD&l
long distanc-.calls as part of eheir telecammunications cost
center manage8ent responsibilities.

Urbach 1talm & Warlin indicate that the minimum hardware and
software cast to establish any local call detail reporting
capability is $3700. In addition. other costs would he incurred
includU1g training, ODUl staff time for operating the call detail
system, and Office Director staff t±me for reviewing and
certifying the call detail reports that Urbach Jtahn & Werlin cUd
not include in their findings and recommendations. The cast of a
local telephone call is 6.5 cents. To recover the hardware and
software investment, at least 56,000 local calls will have to he
el~minated.   Por every hour that agency staff spend operating the
call detail system, producing call detail reports. and certi:fying
the results, another 400-500 local telephone calls will need ~o
be el!minated to produce any sav~gs. These ratios of costs to
benefits indicate to O:rRK staff that cal.l detail reporting far
local calls is Dot cast effective.

~ addition, the call detail reporting system recommended by
Urbach 1talm &: Werlin. can only work with telephones cODD.ected to
Horstar ltSU's. Therefore, it focuses on just a limited number of
users and offices, pr±m&rily: Commissioner Offices, the General
Counsel, Office of Unfair ~orts, aDd the rest of ebe office
directors and their immediate staff. It does not provide for any
call detail reporting for ather agency staff. As such, the
proposed call detail reporting system is nat a random sample. nor
does it provide universal coverage. Since it can. only identify
selected staff, it is and could appear to agency staff as
discriminatory.

     *   The Chairman modified this response as   follows~

              "Indicate action contemplated has been performed."
TARGET COMPLETION DATE:   NOT APPLICABLE


RECOMMENDATION:

10.   USITC Administration should re-evaluate its mailroam
      services contract.

RESPONSE: PARTIALLY AGREE

During the drafting stage of ·the audit report Administration had
same rather in-depth discussions with UXW about the thrust of
this recommendation. While we agree that the mailroom services
contract should be reviewed for the types of services required of
a contractor we disagree that contracting for mailroam services
is not cost effective or efficient. We had several years of
experience with trying to maintain a stable government employee
workforce for the types of activities covered by the contract
 (i. e. mai1clerks, laborers and driver) and found that since there
is consistently high personnel turnover that we were frequent1y
having to reduce services or press other people into temporary
service to get the job done. The ITC has had a contractual
arrangement since October 1, 1988 and it has worked very well.
because the contractor is obligated to have a full workforce at
all t~es. Tbe contract provides the capability to add mare
laborers on short notice for special jobs. A recent example was
the need to set up three hearing roams for the steel case on
short notice. Even if authority were available to hire Federal
employees to perfo~ these activities Administration would make
the case that contracting is the better approach. As for the
 "trust- factor mentioned in the audit it is noted that this
observation was made by only one person.

Administration is assessing the new mailroom contact which wi1l
begin in FY 1994 in light of changes to metered mail and the
possibility of changing mail deliver procedures in order to
reduce the cost of the contract.

TARGET COMPLETION DATE: October 29, 1993 (est~ted date for
issuance of the Commission's FY 1994 Expenditure Plan).


RECOMMENDATION':

11.   OSITC should consider utilizing the minivan or sedan for
      deliveries.

RESPONSE:   AGREE WITH COMMENTS

In so far as the Office of Management Services can utilize either
vehicle without interfering with services to Presidential
appointees or otherwise interfering with mission accomplishment,
it will continue to do so.
However, a factor weighing against the practical utilization of
the van or sedan for this purpose is the need for Cwo persons to
accompany it in most instances. That is, legal parking spaces
around most pick up and delivery sites are at a premium,
necessitat~g one person to "run" the package in or pick the
package up while the other person stays with the vehicle and
circles the block.

TARGET COKPLETION DATE:    Complete


RECOMMENDATION:

12-13.   Logs should be maintained at   facs~le   machines

RESPONSE:   DISAGREE

PROPOSED ACTION:   HONE

The maj or cost component of using a facsimile machine is the cost
of the telephone call. Domestic and international long distance
calls are already being tracked and certified. It is not cost
effective to track and certify costs associated with local ca1ls.
The purpose ~ a facsimile machine is to facilitate
com:municationl not generate additional bureaucracy. Orbach ltahn
& Werlin has not demonstrated or described any real or potential
benefit of having logs, other thaD. the ability for the agency to
then develop "log- processing procedures.

TARGET COKPLBTION DATE:     NOT APPLICABLE

RECOMMENDATION:

14.   USITC personnel should use telephone calling cards while
      traveling on official business.

RESPONSE: AGREE

USITC Directive, No. 3402.1, Control and Usage of Government
OWned or Provided Telecommunications Systems and Service, states
that "While on travel, use of a calling card is mandatory except
in emergency situations." For employeels safety, convenience, in
instances where the Government calling card did not work, and
with the thought of facilitating, not hindering the employeels
mission, we have used our judgement to allow reasonable telephone
charges on the hotel invoices. While we have questioned the non-
use of a Gove~ent calling card we have Dot always documented
it.

OFB will remind cost center managers of the requirement to use a
Government calling card and we will assure proper documentation
for all telephone costs on travel vouchers.

TARGET COKPLET:ION DATE:   December 31, 1993.
RECOMMENDATION:

15.   USITC should determine the whereabouts of all active
      temporary calling cards.

RESPONSE:   AGREE

The twelve Sprint calling cards not added to the log book and not
in the safe were found in a locked file cabinet. These
additional calling cards were requested so that OPB could assure
adequate availability when required by travelers (see requirement
in recommendation #14 above). The number of calling cards OD
hand (Sprint & AT&T), in our opinion, are the miD~ number
required to properly service Commission travelers.

As st.ated above,the use of calling cards is monitored by the
Office of Info~tion Resources HaDagement who require
certification of the charges from appropriate cost center
managers on a monthly basis. The Office of Finance and Budget
will maintain a current listing of all calling cards issued by
OFB, and will reconcile this list on a monthly basis.

The AT&T calli~g cards issued by OPB are not intended to he
RtemporaryR. In prior years it became apparent that by utilizing
temporary calling cards we could not dete~ne respons1bility for
the costs. We therefore secured additional AT&T calling cards,
issue them permanently to travelers and DO NOT want them returned
until the employee leave the Commission.

Sprint calling cards issued by OFB are intended to be
RtemporaryR. Pe~ent Sprint calling cards are issued by OXRK.
OFB will establish procedures. to assure that the temporary
calling cards it issues are returned in a t~ely fashion.

TARGET COMPLETION DATE:   December 31, 1.993


RECOMMENDATION:

16.   USITC should have an airbill, and authorized signature on
      the airbill, for all Federal Express deliveries.

RESPONSE:   AGREE W:ITB COMMENT

In reality, the Office of Management Services (OMS) must balance
the needs of its clients with the optimum of protection. In
order to ~rove controls while maintaining user requirements,
OMS will develop procedures for airbill or waybill vendors.

TARGET COMPLETION DATE:   September 30, 1993
RECOMMENDATION:

17.   OMS should redesign the vehicle log.

RESPONSE: AGREE WITH COMMENT

Statements made in the Cause and Effect sections r page 32 are
incorrect. Documenting procedures are enforced. However,
documenting the ·purpose· of Commissioner trips is ·transporti.ng
Commissioners· and the location and number of passengers, if any.
Further info~tioD on the business purposes of a particUlar
Commissioner's trip may be sought by the IG fram the
Commissioner. Vehicle use reports are reviewed by The Chief and
Assistant Chief, Pacilities Management Division and the Director,
Office of Administration. In any case, OMS has made the following
recommended changes:

      1.   The computerized vehicle log has been eliminated.

      2•   The manual trip log bas been redesigned.

TARGET CC3IPLBT:IQIJ DAD:   COMPLE'l'B


OTBER KA'l'TERS "'AND SUGGESTIONS:


L.    'D'SI'1'C is not being properly charged by GSA for special phone
       line features.

OI:RH agrees that GSA is not properly charging for special phone
line features.    In addition, as the audit report notes, GSA is
expected to change fram a fixed line-cost hasis to a usage-based
cost for P'1'S 2000 service. OZRM does not have sufficient
infoxmation at the present t~e to project the overall tmpact of
these GSA changes.

The proposed action is a combination of the proposed actions for
items 1. and 7. above. Directive 2103, revised to assign
responsibility for usage charges to users and their respective
supervisors addresses the issue of conversion fram line-based to
usage-based charges. OIRK's use of the automated inventory as
established in recommendation 7. and the procedures for periodic
review will ensure telephone features and number of lines are
maintained at opt~l levels and thereby address costs associ.ated
with correct hilling by GSA for line features. With ~creased
cost center monitoring and a corresponding decrease ~ the
overall number of lines and features in the inventory, the
poss1bility exists that annual charges would remain at previous
levels.

TARGET COMPLETION DATE        March 1.5, 1994
    M.   Mandatory postage metering will likely   ~crease   costs.

    The Office of Management Services agrees that postage will likely
    increase. OMS has coordinated the issue of postage cost
    increases with senior management and the Office of Pinance and
    Budget. Both have been made aware for several fiscal years that
    increases were highly likely, and they endorsed OMS' decision to
    save Commission funds in the inter~.

    In early Py 1993, OMS undertook a proactive review of the issue
    of accountability, including a review of the ROKAS" system.

    OMS found that by capturing data at the point of metered postage
•   application, which can be accomplished by acquiring the
    appropriate system, and by establishing appropriate contractor
    procedures, OMS can establish department accountability where
    needed (with little or no impact on the customer). This also
    allows the Commission to consider 3rd/4th Class Mail commingling.

    OMS' study of the OHAS system found it to be impractical and
    unnecessary. The OMAS system requires that each Commission staff
    member bandcode in a specific location on each mail piece a
    special discrete code. OHAS then captures the incidence of these
    codes and re~s this data ~ set, non-manipulable foxmat on a
    15 inch tape ~eel (which cannot be read inhouse) •

    TARGET COMPLETION DATE:   December 30, 1993

    OMS will have an automated postage metering system with
    accountability capability in place prior to October 1, 1993.


    N.   USITC should use alternate vendors for its general courier
         services

    TARGET COMPLETION DATE: RIA

    OMS concurs with the need to reduce the costs of conveying
    materials to the max~ extent possible. Courier trips will be
    done by ITC driver/messenger where possible. Courier contracts
    will be combined, where appropriate.


    o.   USITC should evaluate alternatives for local overnight
         delivery and courier services.

    OMS cannot develop a carrier specific policy for metropolitan
    area overnight package delivery service - nor can OMS override
    requestor's decision as to the expeditiousness of delivery
    required. OMS instructions to the Contractor (fo~lized and
    provided to requestors) is that the lowest cost means available
    which accomplishes the requirement is to be used. The carrier
•   changes as the prices fluctuate and also based on weight,
    location and speed required. OMS agrees that the Commission
vehicle should be used when available. OMS will continue to
consider 2nd day UPS or USPS where appropriate.


P.   USITC should consider establishing a   fo~l   organization
     plan for communication services.

OIe agrees the agency may benefit from having a more formal
planning document for communications services. OXKK wil develop
a telecommunications planning document similar to the sample
outline provided by Urbach Kahn & Werlin but tailored mare to the
l:TC' s needs. OXRK views the sample as a menu of possible areas
to be addressed and will select for inclusion in the planning
document those topics mast appropriate to the agency.

OIRM will develop and maintain a Telecommunications Plan that
includes an overview, strategic plan, and operational guidance
with a level of detail that fits the size and scope of agency
telecommunications requirements.

OMS believes that there should be a specific ·plan· for mail and
courier services because of its fiscal and mission tmpo~tance.

TARGET COMPLnXON DA'1'B:   April 29, 1994
              .J
